<html>
<title> - ELECTION SECURITY PREPARATIONS: A STATE AND LOCAL PERSPECTIVE</title>
<body><pre>[Senate Hearing 115-648]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-648

                     ELECTION SECURITY PREPARATIONS

=======================================================================

                                HEARINGS

                               BEFORE THE

                           COMMITTEE ON RULES
                           AND ADMINISTRATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                    JUNE 20, 2018 AND JULY 11, 2018

                               __________

    Printed for the use of the Committee on Rules and Administration
    
    
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    


        Available via the World Wide Web: http://www.govinfo.gov
                 
                 
                               _________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-266                     WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d0d123d1e080e091518110d531e121053">[email&#160;protected]</a>                         
                 
                 
                 
                 
                 COMMITTEE ON RULES AND ADMINISTRATION

                             SECOND SESSION

                     ROY BLUNT, Missouri, Chairman

MITCH McCONNELL, Kentucky            AMY KLOBUCHAR, Minnesota
LAMAR ALEXANDER, Tennessee           DIANNE FEINSTEIN, California
PAT ROBERTS, Kansas                  CHARLES E. SCHUMER, New York
RICHARD SHELBY, Alabama              RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      TOM UDALL, New Mexico
SHELLEY MOORE CAPITO, West Virginia  MARK R. WARNER, Virginia
ROGER WICKER, Mississippi            PATRICK J. LEAHY, Vermont
DEB FISCHER, Nebraska                ANGUS S. KING, JR., Maine
CINDY HYDE-SMITH, Mississippi        CATHERINE CORTEZ MASTO, Nevada

                   Fitzhugh Elder IV, Staff Director
              Elizabeth Peluso, Democratic Staff Director

Note: Archived webcasts of all hearings and an electronic version of 
    this report are available at http://rules.senate.gov.
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                  Pages

                             June 20, 2018
                             
 HEARING--ELECTION SECURITY PREPARATIONS: A STATE AND LOCAL PERSPECTIVE
                         Opening Statement of:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri.......................................................     1
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota...     2
Hon. John R. Ashcroft, Missouri Secretary of State...............     4
Hon. Jim Condos, Vermont Secretary of State......................     6
Hon. Steve Simon, Minnesota Secretary of State...................     8
Matt Masterson, Senior Cybersecurity Adviser, Department of 
  Homeland Security..............................................    10
Noah Praetz, Director of Elections, Cook County, Illinois........    26
Shane Schoeller, Clerk, Green County, Missouri...................    28

                        Prepared Statements of:

Hon. John R. Ashcroft, Missouri Secretary of State...............    37
Hon. Jim Condos, Vermont Secretary of State......................    40
Hon. Steve Simon, Minnesota Secretary of State...................    45
Hon. Connie Lawson, Indiana Secretary of State...................    49
Matt Masterson, Senior Cybersecurity Adviser, Department of 
  Homeland Security..............................................    54
Noah Praetz, Director of Elections, Cook County, Illinois........    60
Shane Schoeller, Clerk, Green County, Missouri...................    75

                  Materials Submitted for the Record:

Statement from R. Kyle Ardoin, Louisiana Secretary of State......    80

                  Questions Submitted for the Record:

Hon. Roger Wicker to Hon. John R. Ashcroft.......................    82
Hon. Dianne Feinstein to Hon. John R. Ashcroft...................    82
Hon. Mark Warner to Hon. John R. Ashcroft........................    84
Hon. Roger Wicker to Hon. Jim Condos.............................    86
Hon. Dianne Feinstein to Hon. Jim Condos.........................    87
Hon. Mark Warner to Hon. Jim Condos..............................    91
Hon. Roger Wicker to Hon. Steve Simon............................    94
Hon. Dianne Feinstein to Hon. Steve Simon........................    94
Hon. Mark Warner to Hon. Steve Simon.............................   100
Hon. Roger Wicker to Hon. Connie Lawson..........................   103
Hon. Mark Warner to Hon. Connie Lawson...........................   103
Hon. Roger Wicker to Matt Masterson..............................   107
Hon. Dianne Feinstein to Matt Masterson..........................   109
Hon. Mark Warner to Matt Masterson...............................   113
Hon. Dianne Feinstein to Noah Praetz.............................   119
Hon. Mark Warner to Noah Praetz..................................   121
Hon. Dianne Feinstein to Shane Schoeller.........................   124
Hon. Mark Warner to Shane Schoeller..............................   127
                              ----------                              

                             July 11, 2018
                             
      HEARING--ELECTION SECURITY PREPARATIONS: FEDERAL AND VENDOR 
                              PERSPECTIVES
                         Opening Statement of:

Hon. Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri.......................................................   129
Hon. Amy Klobuchar, a U.S. Senator from the State of Minnesota...   130
Hon. Ron Wyden, a U.S. Senator from the State of Oregon..........   131
Hon. James Lankford, a U.S. Senator from the State of Oklahoma...   133

                                Panel I

Commissioner Thomas Hicks, Chair, U.S. Election Assistance 
  Commission, Silver Spring, Maryland............................   135
Commissioner Christy McCormick, Vice Chair, U.S. Election 
  Assistance Commission, Silver Spring, Maryland.................   137
Charles H. Romine, Ph.D., Director, Information Technology 
  Laboratory, National Institute of Standards and Technology, 
  Gaithersburg, Maryland.........................................   140
Matthew Masterson, Senior Cyber Security Advisor, U.S. Department 
  of Homeland Security, Washington, DC...........................   141

                                Panel II

Scott Leiendecker, CEO, KNOWiNK, St. Louis, Missouri.............   157
Peter Lichtenheld, Vice President, Operations, Hart InterCivic, 
  Austin, Texas..................................................   158
Bryan Finney, Founder and President, Democracy Live, Inc., 
  Seattle, Washington; Sector Coordinating Council for the 
  Election Infrastructure Subsector, U.S. Department of Homeland 
  Security, Washington, DC.......................................   158

                        Prepared Statements of:

Commissioners Thomas Hicks and Christy McCormick, United States 
  Election Assistance Commission (EAC)...........................   169
Charles H. Romine, Ph.D., Director, Information Technology 
  Laboratory, National Institute of Standards and Technology.....   180
Matthew Masterson, Senior Cyber Security Advisor, U.S. Department 
  of Homeland Security, Washington, DC...........................   186
Scott Leiendecker, CEO, KNOWiNK, St. Louis, Missouri.............   192
Peter Lichtenheld, Vice President, Operations, Hart InterCivic, 
  Austin, Texas..................................................   195
Bryan Finney, Founder and President, Democracy Live, Inc., 
  Seattle, Washington; Sector Coordinating Council for the 
  Election Infrastructure Subsector, U.S. Department of Homeland 
  Security, Washington, DC.......................................   202

                  Materials Submitted for the Record:

President and Chief Executive Officer, Dominion Voting Systems...   206

                  Questions Submitted for the Record:

Hon. Roger Wicker to Commissioners Thomas Hicks and Christy 
  McCormick......................................................   210
Hon. Tom Udall to Commissioners Thomas Hicks and Christy 
  McCormick......................................................   211
Hon. Mark Warner to Commissioners Thomas Hicks and Christy 
  McCormick......................................................   212
Hon. Cortez Masto to Commissioners Thomas Hicks and Christy 
  McCormick......................................................   214
Hon. Tom Udall to Mr. Charles Romine.............................   215
Hon. Mark Warner to Mr. Charles Romine...........................   216
Hon. Cortez Masto to Mr. Charles Romine..........................   217
Hon. Tom Udall to Mr. Matthew Masterson..........................   218
Hon. Cortez Masto to Mr. Matthew Masterson.......................   221
Hon. Tom Udall to Mr. Scott Leiendecker..........................   226
Hon. Mark Warner to Mr. Scott Leiendecker........................   227
Hon. Roger Wicker to Mr. Peter Lichtenheld.......................   229
Hon. Tom Udall to Mr. Peter Lichtenheld..........................   230
Hon. Mark Warner to Mr. Peter Lichtenheld........................   231
Hon. Roger Wicker to Mr. Bryan Finney............................   235
Hon. Tom Udall to Mr. Bryan Finney...............................   236
Hon. Mark Warner to Mr. Bryan Finney.............................   237

 
                    ELECTION SECURITY PREPARATIONS:
                     A STATE AND LOCAL PERSPECTIVE

                              ----------                              


                        WEDNESDAY, JUNE 20, 2018

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:57 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Roy Blunt, 
Chairman of the committee, presiding.
    Present: Senators Blunt, Fischer, Klobuchar, Durbin, Udall, 
and Cortez Masto.

  OPENING STATEMENT OF HONORABLE ROY BLUNT, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF MISSOURI

    Chairman Blunt. The Committee on Rules and Administration 
will come to order.
    Glad our witnesses are here. Glad you had the patience that 
we needed today to get two votes done on the floor. I am 
particularly grateful that my fellow Missourians are here--
Secretary of State Jay Ashcroft, and in the next panel is 
County Clerk Shane Schoeller from my home county--and both of 
them having to hold a job that I once held. It is particularly 
good to see you here and the rest of you on the panel.
    As we begin our review of Federal elections, Senator 
Klobuchar and I are in agreement that the best starting point 
is to start with you. The best starting point is to start with 
state and local officials who, through the history of the 
country, have been responsible for election administration, and 
they are responsible to the people that choose them to do that 
job to see that it is done well.
    Clearly, elections are the keystone of democracy, and they 
are dependent on the efforts of county officials, of election 
directors, of secretaries of state, and many others. On 
election day, they are dependent on lots of people who 
essentially figure out how to volunteer for their job at the 
polling place.
    During the 2016 election cycle, state and local election 
officials were tested like they haven't been before by 
cyberattacks, and we anticipate that these attempts will 
continue, and attempts to interfere with the process will 
continue. We want to be sure that we are doing what we can to 
help you thwart these attempts. State and local governments 
need access to timely and actionable information and technical 
assistance when they need it.
    One of our goals today is to find out more about the 
information sharing that is occurring between Federal, state, 
and local officials and to learn more about your concerns and 
your thoughts on that.
    In January 2017, the Department of Homeland Security 
designated our country's election infrastructure to be critical 
infrastructure. This designation began the formalization of 
information sharing and collaboration among state, local, and 
Federal governments through the creation of a Government 
Coordinating Council. Some of our witnesses this day are 
already sitting on that newly formed council.
    More recently, in the 2018 omnibus, Congress appropriated 
right at $380 million to the U.S. Election Assistance 
Commission to help states enhance their election 
infrastructure. As of this week, 38 states have requested $250 
million of that money, and about $150 million of it has already 
been disbursed to the states.
    Finally, the attempts to influence the 2016 election have 
spurred many calls for additional laws. I remain open to 
learning more about where those gaps are and how we approach 
those gaps in a way that continues to let local officials do 
their job, but be sure that there is maximum confidence in what 
happens on election day.
    Glad all of you are here. Certainly, it is a pleasure for 
Senator Klobuchar and I to get to work together on this and 
particularly for me to get to work with her. We have had a long 
history of working together, but just this year starting to be 
the top two individuals on this committee.
    Senator Klobuchar, I would recognize you for your opening 
statements.

 OPENING STATEMENT OF HONORABLE AMY KLOBUCHAR, A UNITED STATES 
              SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Well, thank you very much, Chairman 
Blunt.
    This committee's jurisdiction is clear. We have 
jurisdiction over Federal elections, and obviously, there has 
been a lot of other committees looking into this issue as part 
of investigations, including Judiciary on which I serve. But in 
the end, if we want to get something done and make some 
changes, I think it is really important that this committee 
weigh in, and a lot of the bills will actually be going through 
this committee.
    According to the Department of Homeland Security, you all 
know this, 21 states' election systems were attempted to be 
hacked into by a foreign country--that would be Russia--and 
this was established not just by the intelligence heads under 
President Obama, but also by the intelligence heads in sworn 
testimony under President Trump. I think it was former Senator 
Coats, now the Director of Intelligence for our country, that 
said he believes that they are going to get bolder in the next 
election.
    I don't think we need to get more direction than that to 
know that we must act. Secretary of State Pompeo said when he 
was CIA Director that he has ``every expectation'' that Russia 
will target the U.S. midterm elections. Those are the facts 
from our intelligence forces, and rather than just admire this 
problem, we have to look at what we can do to make things 
better.
    One of the things that we have done, and I appreciate the 
input from the secretary of states, including my own, Steve 
Simon, who is here--thank you. I will note that Minnesota has 
the highest election turnout in the country nearly every year, 
including last year.
    Oh, excuse me, Illinois.
    [Laughter.]
    Senator Klobuchar. We are continuing that record, and a lot 
of that is the election laws that we have in place for same-day 
registration and other things that have made that possible.
    But our subject today is how to protect our elections, how 
to make them more secure with the facts that we have, that we 
allow our state election officials to get information in real 
time about hacks across the country because, you know, hack us 
once, shame on them. Hack us twice, shame on us if we don't do 
anything about it. Because we know it happened, and we know it 
will happen again. In fact, in Illinois, they got as close as 
the voter data information.
    We have a bill, Senator Lankford and I--along with Senator 
Harris and Graham and Warner and Burr, Heinrich and Collins--it 
is a bipartisan bill called the Secure Elections Act, and we 
have been working to make changes to it along the way and 
introduce it as amendment. But it really does four things.
    First of all, improves information sharing between local 
election officials, cybersecurity experts, and national 
security personnel.
    Second, providing for development and maintenance of 
cybersecurity best practices. We all know I think there is five 
states that don't have back-up paper ballots, and then there is 
something like nine more that have partial back-up paper 
ballots. While we are not mandating what each state does, and 
we do not want each state to have the exact same election 
equipment, we think that would be a problem and would actually 
lend--it could potentially lend itself to more break-ins, we 
think it is really important that we have some floor and 
standards that we set that, given what we know, I don't think 
we would be doing our democracy any good if we didn't share 
that and we didn't put in some floors.
    Third, the bill will promote better auditing. Our elections 
use the paper back-up systems, which I mentioned.
    Finally, it is focused on providing election officials with 
much-needed resources. As you all know, we were able to get 
$380 million to be immediately distributed to the state--not 
play money, money that is going out right now to states across 
the country based on population. We didn't have some 
complicated grant process that would have slowed things down. 
The money went directly to state election officials as long as 
the State legislature authorizes it to get accepted and get to 
work to update their systems.
    That is what we have been focused on, and we want to thank 
you for your involvement, and I think we know what the facts 
are and what the evidence is. I will end with this, a reminder 
of what is at stake.
    In 1923, years before Sputnik and the Internet, Joseph 
Stalin, then General Secretary of the Soviet Communists, was 
asked about a vote in the Central Committee of his party. 
Stalin was unconcerned about the vote. After all, he explained 
that who voted was completely unimportant. What was 
extraordinarily important, he said, was who would count the 
votes.
    Now 95 years later, those words echo in this room as we 
realize that this country or they would say not the people, but 
the leader of this country, Vladimir Putin, was once again 
really trying to influence who counts the votes and how the 
votes are counted by attempting to hack into our systems. We 
cannot have that happen. I don't care if we are a Democrat, 
Republican. I don't care who you are for in the Presidential 
race or who you are for in these Senate races. This is really 
about the integrity of our democracy.
    Thank you, Senator Blunt.
    Chairman Blunt. Thank you, Senator Klobuchar.
    Again, I want to thank the witnesses for joining us today. 
Unfortunately, weather and a flight cancellation made it 
impossible for Secretary Lawson's attendance today, but we are 
glad that she tried to come, and we are glad you are here.
    Let us turn to our panel. First, Secretary of State 
Ashcroft from Missouri will start, and then Secretary Condos of 
Vermont, Secretary Simon of Minnesota, and finally, Mr. 
Masterson of the Department of Homeland Security. We have your 
comments for the record. You can use as much or little of that 
as you want to, and we will have it for the record no matter 
what.
    Secretary Ashcroft, we are glad all of you are here and 
eager for you to start.

OPENING STATEMENT OF JOHN ASHCROFT, MISSOURI SECRETARY OF STATE

    Mr. Ashcroft. Thank you, Chairman Blunt, Ranking Member 
Klobuchar, and distinguished committee members, for the 
opportunity to join you here today for this important 
discussion regarding the security of our elections.
    My name, as mentioned, is John Ashcroft, and it is my 
distinct privilege and honor to serve as the 40th Secretary of 
State for the great people of the State of Missouri. As was 
already noted, this is an office administered at one time by 
the chairman of this committee.
    I decided to run for Secretary of State because of my four 
children. My goal was to ensure their voices and those of 
future generations would continue to be heard at the ballot 
box. One of the priorities of my campaign was to enact 
legislation that both increased the security of our votes and 
made sure that every registered voter could vote. Simply put, 
in Missouri, if you are registered, you can vote, and your vote 
will count.
    Elections are the bedrock of our democratic republic, as 
they are how we the people consent to be governed. The 
integrity of these elections is of the utmost importance, every 
day when I go to my office in Jefferson City, and I know my 
fellow election officials across this country share that same 
concern and dedication.
    I welcome today's conversation to talk about election 
security preparations, but before we move forward, we should 
briefly look back to the impetus of why we are all here today--
allegations that outside actors threatened the integrity of our 
elections during the 2016 election cycle.
    While these are serious allegations, it is vitally 
important to understand that after 2 years of investigation, 
there is no credible--and I could strike ``credible'' and just 
put ``evidence.'' There is no evidence that these incidents 
caused a single vote or a single voter registration to be 
improperly altered during the 2016 election cycle. It was not 
our votes or our election systems that were hacked. It was the 
people's perception of our elections.
    Secondly, every reported cyber incident in 2016 involving 
state election systems was first detected by state election 
authorities, not the Federal Government. In each case, election 
authorities brought the incident to the attention of Federal 
authorities, not the other way around.
    This is not to say that our elections are perfect, that 
there was no fraud, that there were no unlawful corruptions of 
votes or vote totals. The evidence indicates that voter fraud 
is an exponentially greater threat than hacking of our election 
equipment.
    In 2010, well before elections being altered rose to the 
forefront of the public conversation, there was a race for the 
Missouri house in Missouri that was decided by one vote. Yes, 
one vote. Election authorities conclusively determined in that 
election that there were two voters, who also happened to be 
family members of the victorious candidate, who voted 
illegally. Despite the fact that the candidate's relatives 
admitted, admitted in a court of law, pled guilty to illegally 
voting, their nephew now serves in the Missouri legislature.
    Consequently, moving forward, any meaningful enhancement to 
election security must take a comprehensive approach to ensure 
that every legally registered voter is allowed to vote and that 
their vote is not diluted by any sort of voter fraud, 
malfeasance, or ineptitude. Moreover, we must avoid knee-jerk 
reactions that would give voters a false sense of security.
    Steps must be taken to improve communication between 
Federal agencies and states regarding cyber threats and 
election security. States have and will continue to work with 
Federal agencies, regardless of any new legislation. However, 
any new mandates must remedy the failure of Federal agencies to 
communicate and work with local election authorities.
    As one example, since 2012, the National Association of 
Secretaries of State has passed multiple times a resolution 
calling on the Federal Government to meet its statutory 
obligations to share information with state election officials. 
While we wish to continue--state election officials wish to 
continue to work in partnership with Federal agencies, and one 
way in which we have done that, as states have teamed up in 
September, we will be having a National Election Security 
Summit in St. Louis, Missouri, and we have requested Federal 
officials, including the Secretary of DHS, to join us, as state 
officials, vendors, technology experts, and local election 
officials get together to improve processes and make sure that 
people know that our elections are secure.
    As important as this information sharing is, there are 
numerous other ways to protect our elections beyond information 
sharing. Proposed changes should recognize the value of 
allowing state election officials to remain in control of 
elections. I have learned that winning an election does not 
make you an elections expert any more than watching a Fourth of 
July celebration makes you a rocket scientist.
    I will close by noting a certain irony. Just over 10 years 
ago, similar individuals were here in Washington, DC, 
explaining what happened in a Federal election, and we were 
told that the answer was to go electronic, to put it all on a 
computer. Now we are back again.
    With the utmost respect, I will continue to work and local 
officials will work with Government officials at the Federal 
level, but it takes us all working together and the expertise 
of individuals that have run elections before.
    Thank you very much.
    [The prepared statement of Mr. Ashcroft was submitted for 
the record.]
    Chairman Blunt. Thank you, Secretary Ashcroft.
    Secretary Condos?

  OPENING STATEMENT OF JIM CONDOS, VERMONT SECRETARY OF STATE

    Mr. Condos. Good morning, Chairman Blunt, Ranking Member 
Klobuchar, and distinguished members of the committee.
    My name is Jim Condos, and I am Vermont's 38th Secretary of 
State. I am also the President-elect of the nonpartisan 
National Association of Secretaries of State. In addition, I 
also serve as a member of the Department of Homeland Security's 
Election Infrastructure Subsector Government Coordinating 
Council, EIS-GCC.
    On July 16, 2018, I will become the new NASS president, and 
I have every intention of continuing the positive work of 
current president, Secretary Connie Lawson of Indiana, and 
those that served before her. NASS is fortunate to have had and 
have leaders, outstanding leaders, and I am proud to be part of 
this association.
    Thank you for the chance to appear before you today with my 
colleagues and for allowing us to address some of the things 
happening at the national level, some work specific to Vermont, 
and also my goals for NASS and the Election Infrastructure 
Governing Council.
    Primary elections across this country are well underway 
with states administering elections in a secure, accurate, and 
fair manner. State and local election officials and Federal 
Government have worked very hard to create a productive 
relationship since the critical infrastructure designation for 
election systems in January 2017.
    As you may know, NASS and its members raised many questions 
and expressed serious concerns about the potential Federal 
overreach into the administration of the elections--clearly, a 
state and local government responsibility. While we remain 
vigilant about possible Federal overreach, we will work 
together to ensure that the critical infrastructure designation 
functions in an effective way.
    Thus, we have chosen to actively focus on improving 
communications between the states and the Federal Government 
and to achieve our shared goal of securing elections. In 
particular, we have utilized the Election Infrastructure 
Subsector Governing Council, which Secretary Lawson mentions 
also in her testimony, to open communication channels and guide 
future collaborative election security endeavors.
    As I transition to the NASS president in less than a month, 
I will also take Secretary Lawson's place on the Executive 
Committee of the GCC. It is my objective to continue Secretary 
Lawson's vital work with this group on behalf of NASS.
    In regards to specific state preparations for 2018 and 
beyond, I would like to thank you and your colleagues for 
appropriating the remaining Help America Vote Act funds to the 
states in the recent omnibus bill. We truly appreciate this 
money, and it will go a long way to helping states strengthen 
and improve their election systems.
    While our upgrades to equipment and cybersecurity will be 
an ongoing challenge for many states, the Federal funding 
received will regrettably be insufficient to do all that we 
want or need. However, we are very grateful for the boost that 
these Federal funds provide us at this time.
    In Vermont, we have already requested and received our $3 
million grant of HAVA dollars from the U.S. Election Assistance 
Commission. By the way, the EAC has provided this in a very 
quick way. It is within 3 to 5 days of actually receiving our 
application, they are getting the money to us. I want to thank 
the EAC publicly for providing a simple and quick method of 
getting that money to us.
    In regards to specific plans in using these new HAVA funds, 
in part our office in Vermont plans to implement prior to the 
2018 primary two-factor authentication for all of our local 
clerks and our SOS staff to access our election management 
system. We have already conducted an additional round of 
penetration testing on our election management system by an 
independent vendor this spring and will do so at regular 
intervals going forward.
    We also will follow the 2018 general election, and every 
general election going forward, with a robust audit of our 
election results using state-of-the-art auditing technology. 
This plan is in addition to what we are already currently 
doing, including mandatory election trainings to our Vermont 
municipal clerks, holding the cyber summit, which we named 
Defending Our Democracy. We convened state and local partners 
to inform Vermonters of our efforts, build confidence in the 
integrity, and those partners included the Department of 
Homeland Security, MS-ISAC from the Center of Internet 
Security, State Homeland Security Department of Public Safety, 
and of course, our town clerks.
    Some of the acknowledged best practices that Vermont is 
using include paper ballot, post-election audits, no Internet, 
daily back-up of our voter registration systems, daily 
monitoring of traffic to our site, blacklisting of known 
problems, periodic penetration tests, securing the human, and 
we have actually installed a real-time Albert monitor.
    I will end by just thanking this committee again for 
inviting me and my peers to testify and for giving me the 
opportunity to speak about this important matter on behalf of 
NASS and Vermont. I look forward to answering your questions.
    [The prepared statement of Mr. Condos was submitted for the 
record.]
    Chairman Blunt. Thank you, Secretary Condos.
    Secretary Simon?

 OPENING STATEMENT OF STEVE SIMON, MINNESOTA SECRETARY OF STATE

    Mr. Simon. Thank you, Chairman Blunt. Thank you, Ranking 
Member Klobuchar.
    I really appreciate the opportunity to be with you here 
today. Thank you for your willingness to engage on this very 
important issue.
    In my judgment, election security in general, and 
cybersecurity in particular, poses the number-one threat to the 
integrity of our elections, both nationwide and in the State of 
Minnesota. I have been on the job, this job now for 3 1/2 
years, and I get asked once in a while--whether it is at a 
family gathering or someone I bump into on the street--what is 
your biggest surprise in the job? You have been there for a 
while now. What is it?
    My answer is always the same. My biggest surprise as 
Secretary of State is the extent to which my time and energy 
and focus is spent on this cybersecurity issue or election 
security in general. It is something that came up to some 
people's minds quite suddenly in 2016. That was a big wake-up 
call, and that is now a central and essential part of the job.
    The good news is that in 2016, Minnesota passed the test. 
We engaged a lot of different partners, including our partners 
at the state and local level, including looking for outside 
eyes and ears to sort of test our systems, and so we passed the 
test. We kept out the folks who were trying to get in.
    From our vantage point in our office, we don't care who it 
is. We don't care if it is Russia or another foreign government 
or a nongovernmental actor or the guy next door. We don't care 
what their politics are. We don't care what candidate they 
support or not. This isn't about Democrats or Republicans. This 
is about us as Americans.
    We passed that test, which is great. But we know and we 
found out after the election that Minnesota was one of the 21 
states that was targeted by elements acting at the behest of 
the Russian Government. That was the exact phrase that the 
Department of Homeland Security used in briefing us and letting 
us know about that threat.
    We know we have to be vigilant, as we were in 2016, but now 
we have a lot more information. I think the good news here, the 
reason that the glass is half full, is that Minnesota--and I 
believe every other state--is in a far better position now 
going into this election than we were going into the last 
election, even though we passed the test in the last election.
    As Senator Klobuchar alluded to, Minnesota is proudly old 
school. We have paper ballots, and that is the bedrock of our 
system in Minnesota. Very hard to hack paper, obviously. 
Although there are electronic components further on down the 
line, we feel that we have those well in hand in terms of state 
laws and some of the resources we need to attack those things.
    Second, we think that we have benefited from the ``critical 
infrastructure'' designation from the Department of Homeland 
Security in terms of expertise, in terms of value added, in 
terms of a good partnership after a rocky start with those 
folks at Department of Homeland Security. That is good as well.
    Third, DHS has put together, as you have heard, this 
Government Coordinating Council, which is a fancy term for 
people sharing information. Although that is good, I think it 
could be even better than it is right now.
    Finally, we have the attention of not only you and your 
colleagues in Congress, but of the national and local media and 
of other elections administrators around the country, and that 
is very good.
    In Minnesota--and I never miss an opportunity to brag about 
my state--we are number one in voter turnout in the country. 
Again, 74.7 percent of registered voters--or eligible voters, I 
should say, voted in the last election, and we are very proud 
of that. In some ways, that means the stakes are particularly 
high and that it hits particularly close to home for us in 
Minnesota.
    We appreciate the Federal partnership that we have received 
so far, and I just want to say once again I want to thank 
everyone, including Senator Klobuchar and others, who were part 
of getting that $380 million for us, for elections 
administrators at the state. It is critical. It is crucial. We 
plan to use every penny of that $6.6 million over the next 5 
years to good effect. It will go a long way.
    However, I would respectfully request that those in 
Congress consider some ongoing way to provide some resources 
for us along those same lines. While we don't want to look a 
gift horse in the mouth and we are very grateful--and I know I 
am--for that money, this is expensive. The recommendations that 
we get from the Department of Homeland Security, while very 
helpful, they have a price tag, and that is not always 
accounted for in state budgets. I ask respectfully that you 
consider that as well.
    Then on the policy side, I would be remiss if I didn't put 
in a word for the Secure Elections Act. I was part of the group 
of secretaries of state that Senator Lankford and Klobuchar 
invited to advise them a bit on the scope of the legislation, 
and I do think there is a legitimate Federal interest in making 
sure that we do have floors--not ceilings, not 
micromanagement--but some Federal interest in assuring that the 
states are talking with one another and that we are not just 50 
silos doing our own thing in our own way.
    Although we ultimately retain that authority to do so and 
we would never want that encroached upon by the Federal 
Government, I think there is an interest in making sure that 
there is some coordination, even if it is the states through 
the GCC or through other channels that decides what is best in 
terms of communication. If for no other reason than that, I 
think that is very important.
    I thank you, Mr. Chair and Ranking Member Klobuchar, for 
your continuing efforts here and cooperation, and we look 
forward to an even more robust Federal partnership in the 
future.
    Thank you.
    [The prepared statement of Mr. Simon was submitted for the 
record.]
    Chairman Blunt. Thank you, Secretary Simon.
    Mr. Masterson?

   OPENING STATEMENT OF MATT MASTERSON, SENIOR CYBERSECURITY 
            ADVISER, DEPARTMENT OF HOMELAND SECURITY

    Mr. Masterson. Thank you, Chairman Blunt, Ranking Member 
Klobuchar, and members of the committee. Thank you for today's 
opportunity to testify regarding the Department of Homeland 
Security's ongoing efforts to assist state and local election 
officials, those who own and operate election systems, with 
improving the resilience of elections across America.
    For over a decade, I have worked with state and local 
officials to advance the use of technology to better serve 
American voters. For the last 3 years, I served as a 
commissioner at the United States Election Assistance 
Commission, working to modernize standards used to test voting 
systems, provide best practices to help support election 
officials, and since 2016 respond to threats against our 
Nation's election systems.
    Now I serve as a senior adviser at DHS focused on the work 
the Department is doing to support the thousands of election 
officials across this country. In this decade of work, I can 
tell you the absolute best part is working with the dedicated 
professionals like those seated at the table here with me that 
administer elections. In the face of real and sophisticated 
threats, these officials have responded by working with us, 
state and local resources, the private sector, and academia to 
mitigate risks and improve the resilience of the process.
    Election security is a national security issue. Our mission 
at DHS is to ensure that the system owners have the necessary 
information and support to assess risks and protect, detect, 
and recover from those.
    This support can come in many forms. Whether it is offering 
no-cost voluntary technical assistance or sharing general or 
specific threat information, DHS stands ready to help and offer 
tailored support based on state and local needs. Through these 
collective efforts, we have already seen significant progress. 
State and local officials and those private sector partners who 
support them are at the table working with us. We have created 
the Government Coordinating Council and private sector councils 
who collaboratively work to share information, share best 
practices, and develop strategies to reduce risk.
    We have created the Election Infrastructure Information 
Sharing and Analysis Center, or EI-ISAC, with members from 
almost all states and hundreds of local jurisdictions. This is 
the fastest-growing sector in critical infrastructure.
    We are sponsoring up to three election officials in each 
state for security clearances, which will allow officials to 
receive classified threat information if or when it is 
necessary. We have increased the availability of free technical 
assistance across this sector. DHS offers a variety of 
services, such as cybersecurity assessments, intrusion 
detection capabilities, information sharing and awareness, and 
incident response.
    The progress being made is clear, as is evident by the 
testimony you have already heard today. Across the country, 
secretaries of state, state election directors, and local 
election officials are taking the steps necessary to respond to 
this new and evolving threat environment.
    Take, for example, the work of Secretary Lawson in Indiana. 
In addition to being an engaged and valued partner with us at 
DHS, she is taking advantage of our scanning and information-
sharing services. Indiana has taken additional steps to improve 
their security, including increasing monitoring capabilities 
and tightening access and controls.
    In addition, they are working to better secure their 
counties through implementation of two-factor authentication 
and improved post-election auditing. This story is true across 
the country.
    We have seen firsthand the progress that is being made at 
the local level as well. Recently, Under Secretary Chris Krebs 
was in Orange County, California, where he was briefed on their 
comprehensive cybersecurity playbook. This plan includes 
improved cyber hygiene practices, more advanced network 
monitoring and intrusion detection, and the implementation of 
more robust, efficient post-election audits to ensure the 
accuracy of election results.
    Combined, these best practices and security services 
greatly enhanced the resilience of Orange County's election 
system. By publicly communicating them, the county is working 
to give voters the information they need to have confidence 
that their votes will be counted accurately.
    Elections are run by states and localities. Across the 50 
states and 5 territories, there are over 10,000 jurisdictions 
that are responsible for elections. The systems, processes, and 
procedures used vary greatly. The local administration of 
elections empowers voters to engage directly with the process 
and those who run it.
    Which brings me to my final point. For those voters who 
have questions or concerns regarding the security or integrity 
of the process, I implore you to get involved. Become a poll 
worker. Watch pre-election testing of the systems or post-
election audits. Check your registration information before 
elections. Engage with your state and local election officials, 
and most importantly, go vote.
    The best response to those who wish to undermine faith in 
our democracy is to participate and to vote. Moving forward, 
the Department will continue to coordinate and support state 
and local officials to ensure the security of our election 
infrastructure. Cyber actors can come from anywhere, 
internationally or within U.S. borders, and we are committed to 
ensuring a coordinated response from all levels of Government 
to help plan for and mitigate these risks.
    Before I conclude, I want to take a moment to thank 
Congress for the legislative progress thus far in strengthening 
DHS's cybersecurity and critical infrastructure authorities. 
Specifically, we strongly support the final passage of 
legislation to create the Cybersecurity and Infrastructure 
Security Agency, or CISA, at DHS. This change reflects the 
important work we carry out every day on behalf of the American 
people.
    I look forward to further outlining the work we are doing 
to enhance the security of elections, and I thank you and look 
forward to your questions.
    Thank you.
    [The prepared statement of Mr. Masterson was submitted for 
the record.]
    Chairman Blunt. Well, thank you, Mr. Masterson.
    We will have a 5-minute round, and if everybody could stay 
pretty close to that and if people have other questions, we 
will have another 5-minute round. We do have a second panel, 
but we want to take full advantage of this panel.
    Let me just ask first the three secretaries of state, this 
is yes or no, should the Federal Government be required to 
share information with jurisdictions that are being impacted by 
known threats?
    Mr. Ashcroft. Yes.
    Mr. Condos. Yes.
    Mr. Simon. Yes.
    Chairman Blunt. For the three of you again, should that 
also--how would--should that include both the state, chief 
state election official as well as the specific jurisdiction? I 
think that is yes or no also.
    Mr. Ashcroft. I would say yes to that.
    Mr. Condos. I agree.
    Mr. Simon. Yes.
    Chairman Blunt. Mr. Masterson, how would you determine--I 
know one of the things I believe you mentioned in your 
testimony was you would have to have some sense that someone 
was ready to receive that information in terms of cyber 
understanding or threat assessment. How would you really 
actually accomplish that with all the local election 
jurisdictions in the country, once you see they have a threat? 
Who do you think you should notify?
    Mr. Masterson. The goal within the Department is to ensure 
broad notification across the sector, which is why we have 
worked to create the Elections Infrastructure Information 
Sharing and Analysis Center, so that there is an avenue by 
which threat information, risk information could be shared 
broadly. Then engaging with the Government Coordinating 
Council, creating those information-sharing protocols for the 
sector.
    The number-one priority within the Coordinating Council has 
been to establish exactly the question you asked, Senator, 
which is how best to share information down to the states and 
then all the way down the locals to ensure that they have what 
they need and that it is done in a way that they can take it 
and it is actionable. They can use it to mitigate those threats 
and protect their systems.
    Chairman Blunt. In terms of broadly sharing, you mean you 
would also broadly share some information with people that 
could potentially face this threat whether they are currently 
facing the threat or not?
    Mr. Masterson. Yes, Senator. That is correct. That is 
typical for how we share information within critical 
infrastructure is to try to boil down the nature of the threat 
and the information necessary for systems owners and operators 
to protect their systems across the sector.
    Chairman Blunt. Again, I am not quite sure I am clear on 
your view of what elected or appointed local official, what 
kind of qualification they would have to have, if any, besides 
having that job for you to share this information with them.
    Mr. Masterson. In order--Senator, in order to receive the 
information from the EI-ISAC, they simply need to be local 
election administrator, state election official, or their 
support staff. The IT staff are eligible. In fact, we are 
working within the sector to craft this information sharing 
such that for executives like the secretaries of state at this 
table, they have the information they need to make good 
decisions from a policy and administrative standpoint, but that 
the IT officials, the technical folks also have the technical 
information they need to respond and protect the systems.
    Chairman Blunt. Is it possible you would be sharing with 
the technical official person something you wouldn't be willing 
to share with the elected official?
    Mr. Masterson. No, Senator. All information is available to 
any of the election officials. It is just a question of who can 
best use that information to effectively protect the systems.
    Chairman Blunt. On the voter registration side, for the 
secretaries, do you have any sense of how many attempts there 
are to get into that system? Secretary Simon mentioned, 
appropriately I think, it doesn't really matter who is trying 
to get in, you don't want them to get in, whether it is a local 
political operative or a foreign government or somebody just 
seeing if they can get into that system and manipulate it in 
some way.
    Is that something that often happens, people are testing 
the system to see if they can get in? Secretary Simon? We will 
go this way this time. You and then Secretary Condos.
    Mr. Simon. Mr. Chairman, yes. That is something that is 
known to happen quite often. Again, we and all the states here 
represented did pass that test, which is good. But there are 
people who are poking and prodding, and the analogy that I have 
come to use in talking with Homeland Security is imagine a car 
thief casing a parking lot, and maybe he goes there a day or 
two in a row. He takes out binoculars and he observes traffic 
patterns, and he tries to figure out is there a way in? That is 
what goes on and can go on quite frequently.
    In the case of all the states represented here, for 
whatever reason, that car thief did not go into the parking 
lot. We would like to think it is because of the great cyber 
protections that we put up in the preceding years. But truth be 
told, we might never know the real reason, but we were able to 
keep them out. But there are people casing--there are a lot of 
people casing a lot of parking lots, and it is up to DHS to 
tell us who they are, what they are there for. So far, they 
have done that.
    Belatedly with respect to the 2016 election--we didn't know 
until 10 months afterwards. But they are doing, I think, a 
better job every day of that.
    Chairman Blunt. Secretary Condos, is this a common thing 
that people are trying to test these systems?
    Mr. Condos. Every day. We have--in talking to my IT 
manager, I can't speak specifically just for election 
management or the voter registration data base, but our entire 
operations, we probably receive several thousand scans per day.
    Chairman Blunt. Per day. Secretary Ashcroft?
    Mr. Ashcroft. I would say we average 100,000 scans on our 
systems a day. We cannot say which of those are targeted to 
elections. We have to treat them all as if they are treated 
toward elections because if they find one way in, they will go 
from there to elections. We treat them as they are all attacks 
on elections.
    Chairman Blunt. Yes, I am going to come back later,
Mr. Masterson, to you on this topic and others, and how do we--
how do you think we narrow down which of those should be 
reported and what should be followed up on? I am going to go 
now to Senator Klobuchar.
    Senator Klobuchar. Well, thank you, Senator Blunt.
    We are just so pleased we are having this election hearing, 
and then I am going to defer to my colleague to ask questions 
first. I am glad they are here, and I will start with Senator 
Durbin. I wasn't kidding that I would defer to you with 
questions.
    [Laughter.]
    Senator Klobuchar. I am just pleased they are here and that 
we are having this really important hearing in Rules. Why don't 
you go first, Senator Durbin, and then we will go in order of 
attendance. I will go last. Go ahead.
    Senator Durbin. Thanks. A few years ago, I was on the 
Senate Judiciary Committee, Chairman of the Constitution 
Subcommittee, and there was a lot of talk about voter fraud, 
voter IDs, reducing the time that you would be allowed to vote. 
I took the hearing on the road. We went to Ohio--Cleveland, 
Ohio. Then we went down to Florida. We called election 
officials just like yourselves, both parties, Republicans and 
Democrats, elected and appointed. I asked them the following 
question.
    Your states just changed voter requirements to require the 
voters to prove with a voter ID, to limit the places where you 
can vote, to limit the time that you can vote. What has been 
the incidence of voter fraud in Ohio, in Florida that led you 
to conclude that you had to put these new burdens on voters? 
The answer was none. None.
    For the record, I would like each of you election 
officials, if you would, please, pick--let us pick 10 years. 
Would you report to this committee, and you don't have to do it 
now, but if you would report to this committee, in the last 10 
years, how many votes have been cast in your state and how many 
people have been convicted of voter fraud in either a state or 
Federal court in the same period of time?
    I don't guess you will know this off the top of your head. 
I won't try to put you on the spot. But here is what I have 
concluded. The statement, Secretary Ashcroft, that you made is 
just--it has to be addressed for the record, and here is what 
you said.
    Voter fraud is an exponentially greater threat than 
hacking. Exponentially greater. Let me tell you what happened 
in Illinois because we blew the whistle. We were one of the 21 
states hacked by the Russians. They got into our voter file. 
Somebody left a little wormhole in there, and they got into our 
voter file.
    They had the capacity, and thank goodness they didn't use 
it, to change just a digit on each of our addresses and make a 
chaotic situation at the polling place when people turned up to 
vote, resulting in hundreds of thousands of provisional 
ballots, and I don't know how that would have ended. They 
didn't do it. Thank goodness they didn't, but the threat was 
there.
    I could count on both hands the cases of voter fraud in the 
State of Illinois in the last several election cycles, and the 
convictions even fewer. When it comes to this hacking, it is 
exponentially greater threat to our voting system than voter 
fraud, exponentially. I am willing to say that.
    I hope that we are ready. We put--thank you for the $380 
million. It is good. We got $13 million in Illinois. I wish we 
would have gotten more. Three hundred eighty million will help. 
In 2002, HAVA produced 10 times that amount, $3.8 billion, to 
modernize our voting system.
    I think the Russians are after us again. I hope I am wrong. 
I think other countries are after us again. If we spend all our 
time worrying about making it more difficult for honest 
American citizens to vote instead of worrying about what the 
Russians and others are going to do to invade our election 
system, shame on us.
    I hope that we take this very seriously. I hope that all 
the states have a paper trail. Ours does, thank goodness. I 
hope every other state--I think five don't--will do just 
exactly that.
    Secretary Simon, in your State of Minnesota, what are you 
going to use the Klobuchar funds for?
    Mr. Simon. Well, thank you, Senator Durbin.
    We will use the Klobuchar funds. We have put in a request 
to use the first $1.5 million of our $6.6 million complement to 
redo our--what is called our SVRS, Statewide Voter Registration 
System. It goes by other names in other states. It is what it 
sounds like. It is the primary data base, the very one that, 
unfortunately, in Illinois suffered a breach and the very one 
that in most of the 21 states that I am aware of was at least 
the intended target at the end of the day.
    Senator Durbin. What they told me in Illinois, the State 
Board of Elections, I said what happened? How did the Russians 
get in there? They said we left a little opening that we didn't 
realize was there, and they got in that wormhole, and they were 
in our system.
    They had the capacity. There is no evidence that they 
changed a single registration or a single vote. I certainly 
agree with the witnesses who have said that. From an Illinois 
perspective, that was true, too. But the potential was there 
for a dramatic change. Did you see the same potential in terms 
of your voter information and voting process?
    Mr. Simon. Well, Senator Durbin, without giving a roadmap 
to the bad guys----
    Senator Durbin. No, please don't.
    Mr. Simon I don't want to do that. But what I would say is 
that I think every system has some vulnerabilities. We, in 
2016, did our very best to--and successfully--to make sure we 
took care of those vulnerabilities. We summoned people to find 
them. We asked for people to probe and poke and pry and find 
them so we could fix them, which we did.
    As a result, I think we--and this is what many states have 
done, not just Minnesota. We managed to repulse or rebuff or 
turn away those who tried to get in, which is good, but I like 
to say this is a race without a finish line. There is no end 
zone where you get to spike the football. There is no tape that 
you get to cross. You always have to stay one step ahead of the 
bad guys, and the bad guys get smarter every year. By the way, 
some of them are funded by foreign governments with virtually 
unlimited resources.
    That race without a finish line is something that keeps a 
number of us awake at night, that takes effort, that takes 
focus, and it takes money. These things have price tags.
    Senator Durbin. Thanks. Thanks, Mr. Chairman.
    Chairman Blunt. Senator Cortez Masto?
    Senator Cortez Masto. Thank you. Thank you all for being 
here. I, too, want to thank you for this important hearing.
    Let me just associate myself with Senator Durbin's comments 
initially. I was attorney general of Nevada from 2007 to 2014, 
and I can tell you I can count on one hand the type of voter 
fraud that we saw. Most importantly, not only did we see it, we 
caught it, and we prosecuted.
    This idea that somehow there was widespread voter fraud 
occurring across this country that needs our immediate 
attention, which engages in voter suppression, is false. I so 
think that we need to correct the record and use accurate data.
    But let me open this up to the panel as well. In Nevada, a 
majority of the counties are rural, and they obviously play a 
significant role in conducting elections in the state. The 
counties don't have the resources that more populous counties 
have, and they don't have resources like dedicated IT support. 
In your states, how have you addressed that unique challenge of 
election security faced by the rural communities, and what can 
we do to continue to help them and support them?
    Mr. Condos. Thank you, Senator.
    In Vermont, we don't have county government. We go directly 
from the state level to the towns, and in Vermont, the state is 
responsible for paying for the equipment. The state is 
responsible for ensuring that it is working, that it is 
maintained. We pay for the memory cards. We actually provide a 
lot of the resources to the towns. It is not a direct payment 
because we do the work.
    That is how we approached it basically because of the way 
we are set up.
    Mr. Simon. Senator, in Minnesota, we have 87 counties. Only 
9 of the 87 counties have full-time, year-round election staff. 
In most of the counties, which are rural or at least non-urban 
and metropolitan, those folks who run elections also wear many 
other hats. They do property taxes. They do drainage and ditch 
work. They do other things, and they don't have the luxury of 
focusing only on elections.
    That is where I think, if I may, the Federal partnership 
comes in. It costs money to hire people, to have training, to 
put up the defenses. Hennepin County, which is Minneapolis, 
they might have the resources in terms of money and personnel 
and others to erect these kind of defenses. Other counties 
might not be so fortunate. That is where I think there is a 
Federal role to play, frankly, with money, with resources, to 
make sure that everyone in every state, regardless of where 
they live and what kind of community they live, can rest 
assured that the security in general and cybersecurity in 
particular is there and in place.
    Senator Cortez Masto. Right.
    Senator Cortez Masto. Was that the impetus behind your 
request for additional funds in your statement?
    Mr. Simon. Yes, Senator. It was in part. I mean, I think 
making sure we have an even playing field no matter where a 
voter lives in Minnesota is very important.
    Senator Cortez Masto. Okay, thank you. Anyone else?
    Mr. Ashcroft. In Missouri, we have really 116 election 
authorities. We have some counties that are split up. We have 
counties with roughly 2,000 registered voters. They do not have 
the ability and the wherewithal on their own for IT staff. Our 
office works with them.
    We have had meetings with our directors of elections, going 
around the state to reach out to them on new cybersecurity 
initiatives. We are holding a national cybersecurity 
conference, both for secretaries of state, for national 
officials, and local election officials on September 10th and 
11th. We are putting all of our effort--well, not all of it, 
but most of our effort into making sure that they have 
actionable things they can do and the resources to do it.
    I would add one other thing. When we passed voter ID in 
Missouri, we actually increased accessibility to the ballot. We 
actually have individualized individuals that would have been 
turned away under the old law that were allowed to vote on our 
new law. I understand Illinois doesn't work as well as 
Missouri, but in Missouri, we can secure our ballots and make 
sure that every registered voter can participate and their 
voice is heard.
    Thank you.
    Senator Cortez Masto. Thank you. I appreciate those 
comments.
    I also think we can also do automatic voter registration 
and still secure our elections and make sure everybody has 
access to vote.
    Let me also say this, Mr. Masterson. I think you need to 
know this. I worked very closely with the election officials. 
In fact, I think it is true. Everybody should volunteer. I 
volunteered in Clark County on election site when I was an 
assistant county manager.
    But know this. I want to convey to you that the election 
officials in Nevada have told my office that DHS has been great 
to work with. Extremely helpful. Generous with your services 
and knowledge. Thank you for that. I really appreciate it.
    One of the things they told me, however, and I am curious 
if you are hearing this and if this is true, and it is not a 
negative thing. It is that there is too much information, that 
they don't have the bandwidth to process the daily DHS updates 
and have difficulty figuring out what pieces of information are 
relevant for them and establishing priorities among the 
information overload.
    Are you hearing the same thing?
    Mr. Masterson. Thank you, Senator, for the question, and I 
think this may go to Chairman Blunt's question as well.
    We have heard some of that, and part of what we are trying 
to tackle--you know, as you establish a new sector, this is a 
new flow of information to election officials--is finding that 
balance about what is the right amount of information, 
tailoring it in a way that prioritizes what they really need to 
know. But then ensuring that the technical folks or IT folks 
that perhaps need a little more detail and more constant 
updates have that as well.
    I think we are finding that balance as we work with the 
Government Coordinating Council and some of the folks at the 
table to create that tailored information sharing. We will get 
better as we build that relationship and share that 
information. But, yes, that is something we have heard and we 
are working to get better at.
    Senator Cortez Masto. Thank you.
    Chairman Blunt. Thank you, Senator.
    Senator Cortez Masto. Thank you.
    Chairman Blunt. Senator Udall?
    Senator Udall. Thank you, Chairman Blunt.
    Let me just, before I ask a couple of questions, we had a 
previous Secretary of State by the name of Dianna Duran, who 
made these just widespread accusations about voter fraud, and 
our state very conscientiously went through thousands and 
thousands that have been reported. After review, it came down 
to several, I mean just a handful of unintentional minor 
errors. No one was ever prosecuted. There was never any real 
fraud that was found.
    I think we need to be very, very careful. I mean, she got 
wonderful headlines, you know? For weeks, there was all this 
activity of, ``Oh, there is fraud. There is fraud.'' Then, when 
it finally trickled out and everybody reviewed it, there was 
nothing there.
    I want to focus again, Secretary Ashcroft, on the quote 
that Senator Durbin asked. The evidence indicates that voter 
fraud is an exponentially greater threat than hacking of 
election equipment. What studies or evidence, preferably 
independent academic studies, back up that claim?
    Mr. Ashcroft. Well, the Senator's actually own words back 
it up because the Senator said that the allegations showed that 
there were no votes changed, no registrations changed by 
hacking. Yet I gave concrete evidence of an election being 
changed by vote fraud.
    As far as I am concerned, if elections are changed by 
fraud, be that individuals in Missouri, be that individuals 
overseas, or by ineptitude, anything that stops the voice of 
the voting public from being heard and then making a decision, 
that is a problem. What I said in my remarks is still true. We 
should take a comprehensive approach to make sure that no votes 
are changed by fraud, malfeasance, criminal actions, or 
ineptitude. We should make sure that every voter knows their 
vote will count.
    Senator Udall. Well, you didn't answer my question. My 
question was about your statement here, ``exponentially greater 
threat.'' What proof do you have?
    I mean, we are all against fraud. Nobody wants fraudulent 
voting. But what proof, independent studies to back up your 
claim that it is exponentially greater?
    Mr. Ashcroft. I will say it as simply as possible. Your 
colleague admitted that no votes were changed, no voter 
registrations were changed by the alleged hacking. I gave you a 
concrete example that was proven in a court of law as 
individuals pled guilty of changing an election.
    No instances of votes being changed. An instance of an 
entire election being changed. That is exactly what I am 
speaking to. I don't know how I can make it more clearer, sir.
    Senator Udall. The--and this is for all the secretaries 
here, and Mr. Masterson, if you have anything to add, I would 
be happy to hear it. Secretary Lawson's written testimony 
stated that only 59 percent of states have drawn down their 
HAVA funds. We know that every state's election infrastructure 
is vulnerable in some way, shape, or form, and we also have 
heard over the years that elections are underfunded.
    Let me ask each of the secretaries, have you drawn down 
your HAVA funds, and if not, what is preventing you from doing 
so? It is a pretty simple answer. I don't need a big lecture on 
that one.
    Mr. Ashcroft. Missouri was the first state to draw down 
their HAVA funds.
    Senator Udall. You have drawn them all down. Okay. You have 
drawn them all down. Go ahead.
    Mr. Condos. Vermont has already drawn down their $3 
million.
    Senator Udall. Yes, Mr. Simon?
    Mr. Simon. Thank you, Senator. We have drawn down our HAVA 
funds.
    Senator Udall. Do you want more? Could you use more?
    Mr. Ashcroft. If you send it, we will use it, sir.
    Senator Udall. Yes. Same?
    Mr. Condos. Yes. Actually, I think what we really need is 
ongoing--if you want to call it maintenance. Cybersecurity is 
an evolving science, and it is an evolving practice. We have 
continuous needs going forward.
    Senator Udall. Same, Mr. Simon?
    Mr. Simon. I would echo the sentiment, yes.
    Senator Udall. Thank you. In your conversations with other 
secretaries of state, do you hear reasons why other states 
aren't drawing down these funds?
    Mr. Condos. Senator, I would say that some of the states 
have to deal with legislative action that needs to be taken in 
order to accept Federal grants. Some of the states may be 
required to do that first. Or it could be from their 
administration. The Governor's office may have to approve it 
before it can be drawn down.
    I think there are other states who are probably trying to 
plan out what they are going to be doing with the money just 
before they get the money.
    Senator Udall. Yes, Mr. Ashcroft, did you have a comment on 
that?
    Mr. Ashcroft. I would say the EAC did a phenomenal job 
getting it out quickly. If it had been a week later, we would 
have run into problems with our legislature.
    Mr. Simon. Senator, I just want to make a distinction 
between the initial HAVA money in 2003. That, we have drawn 
down. The latest chunk, what we have been calling 
affectionately ``the Klobuchar money,'' unfortunately, because 
of, frankly, a political fight in our legislature at the end of 
the session, we weren't able to get access to that $6.6 million 
now, this year.
    That was a totally avoidable outcome and an unfortunate 
one. We think we will be okay, but the sooner we can get that 
money, the better.
    Senator Udall. Yes. Thank you for the courtesy, letting me 
go over a little bit, Chairman Blunt.
    Chairman Blunt. Thank you. Senator Klobuchar?
    Senator Klobuchar. Thank you very much.
    Just to clarify, Secretary Simon, you will be able to 
access that money in the future, and the legislature and the 
Governor appears to want our Secretary of State's office to get 
that funding. Is that correct?
    Mr. Simon. That is correct.
    Senator Klobuchar. Okay. It was just part of a larger fight 
over something that, as you described it, was unfortunate. It 
wasn't about the money.
    You mentioned, Secretary Simon, that the bill strikes a 
right balance of the Federal Government support for states. 
This is the Secure Elections Act. Can you expand on this?
    Mr. Simon. Right. Well, I, along with my colleagues, I 
think regardless of party, will always emphasize the primacy of 
the role of states in administering elections. I think there 
is, I dare say, unanimity on that score among secretaries of 
state.
    But what I like about the balance that the Secure Elections 
Act is striking, and I know it is a work in progress, is this 
realization that floors, not ceilings are okay, that even if it 
is just a question of a Federal interest in making sure 
something is done, regardless of how the states choose to do 
it, is important. I highlighted in my testimony here just the 
communications process.
    The GCC, the Government Coordinating Council, is already 
coming up with communications protocols, and my understanding 
of the latest version of the Secure Elections Act is there is 
an acknowledgment there, that that communications can come in 
many different forms including, and not limited to, what the 
GCC comes up with. But the important thing is that there is 
communications, by the way, not just up and down, but up, down, 
and sideways. Local Governments, State Governments, Federal 
Government, maybe some nongovernment actors in some situations.
    I think that alone is a cause for the Federal Government to 
assert some interest in making sure that this communication is 
going on. An election attack in Minnesota can perhaps be linked 
to or have very real effects on an election attack in Vermont 
or Missouri or anywhere else, and so I think that 
communications is important.
    I highlighted that particular aspect, but I think a 
recognition of the primacy of the state role, coupled with a 
very real and genuine Federal interest in making sure things 
get done. States can choose how those things get done. I think 
that strikes the right balance.
    Senator Klobuchar. Okay. Secretary Condos, you mentioned 
that the Election Assistance Commission has done a great job of 
disbursing the HAVA funding, appropriating earlier this year 
this money we are discussing. Much of our focus today has been 
on DHS, but could you comment on the role that EAC has played 
in improving communications around the cybersecurity issue.
    Mr. Condos. Certainly. They have been a very valued partner 
with us. They provide information. Obviously, we have to submit 
an approved plan or a plan to them how we are going to spend 
the money.
    I think, you know, I may differ from some of my colleagues, 
but I think that the EAC plays an important role in our 
elections process across this country and sorely needs to have 
the resources it needs to operate and also really badly needs 
to have Congress appoint a full quorum, at least a quorum so 
that they can--their board, or the commission can actually 
operate.
    Senator Klobuchar. You mentioned your support of post-
election audits earlier. Can you expand on the importance of 
conducting audits and how it relates to voter confidence?
    Mr. Condos. I think that that is extremely important for 
all the--for the integrity of our elections. We in Vermont do 
use paper ballots, and we do a post-election audit within 30 
days. When we do it, we actually do approximately 5 percent of 
our towns, and we do 100 percent of the ballots from that town, 
100 percent of the races on that ballot.
    We do a complete audit of that election. We feel that the 
confidence level that we have with it is as close to 100 
percent as you can be. It is a post-election audit is something 
that I believe should be something that is included in the 
Secure Elections Act as it is.
    Senator Klobuchar. Secretary Simon, same question, but 
about paper ballots and how you see them as an advantage.
    Mr. Simon. It is a huge advantage, especially post 2016. I 
mean, the fact that Minnesota is proudly old school has served 
us well, and we see now many states that are--who were once 
perhaps sold on this vision of the paperless future are now 
understanding that, no, paper is good after all and are going 
in the direction of most of the states in having a paper 
ballot.
    It is very hard to hack paper, and although in Minnesota, 
that paper is fed into a machine, under state law, that cannot, 
must not, and shall not be connected to the Internet. That is a 
central part of our system.
    Senator Klobuchar. Then you have been able to get results 
fairly quickly with this system?
    Mr. Simon. That is right. Yes. It also benefits those 
following the results on election night because the results can 
be reported very quickly, and the counties and the local 
governments are outstanding partners in making sure we get that 
information out.
    Senator Klobuchar. Okay. I can turn it to you and then 
maybe ask a few questions----
    Chairman Blunt. No, go ahead. We have some time.
    Senator Klobuchar. Okay. I want to focus on some of the 
things that have come out here. First of all, I am not going to 
go on about voter fraud, but I will note the decision that came 
out just yesterday in Kansas, where a Kansas judge struck down 
Kansas' voting registration law that they had introduced, that 
Secretary Kobach actually had introduced that was very 
restrictive.
    He had made this case that there were--it was the tip of 
the iceberg, the people that he had found who had somehow 
fraudulently voted. The judge here looked at all the evidence 
and found that it was a very small number and said that there 
was, in fact, no iceberg--this is their words--only an icicle, 
largely created by confusion and administrative error.
    This was a very thorough review of this. This is based on 
my own experience as the county attorney in Minnesota's biggest 
county, where we had to review cases that were referred to us 
from the Secretary of State, and I had a full-time 
investigator. This is right on the front line looking at these. 
I would--I would echo these remarks because I remember specific 
cases, the handful of cases people referred to.
    The couple whose--the voting line went right, through the 
school board, through their house, and they had decided that 
meant that each of them could vote in both elections, and then 
they asked me where they were supposed to vote, and we did 
research and said it was where they sleep. Then the wife called 
back and said, well, what if we slept in separate beds on two 
sides of the line?
    Okay. I don't--I mean, this is serious stuff, but the kind 
of cases I saw, and we did prosecute a few. A guy that said a 
Republican wouldn't have a say in Minneapolis. So he decided to 
vote twice. Told that to our investigator.
    We had--but those were so rare. Overall, we found that most 
of these cases were a dad and a son with the same last name and 
the same first name, and it was confusing. When we looked into 
it, we found out they had a total legal right to vote.
    I do want to remember this decision, which really 
encapsulates what we have seen in these studies all across the 
country and that our effort should be much more on trying to 
get people to vote, which secretary of states are in such a 
unique position to do, to encourage them to vote, to get the 
numbers up. For us, it always works to say we don't want Iowa 
to beat us in voter turnout, or we don't want Wisconsin to beat 
us. But that is what we should be doing and not--and be honest 
about what is going on here with these numbers.
    Then the other thing we have to be honest about is not that 
the votes were changed in the last election, but they tried, 
and they tried hard, and they got into the Illinois data bank, 
and those kinds of things. They tried in 21 states.
    When our own intelligence people under President Trump are 
telling us that Russia is emboldened, are telling us that we 
are at risk, I think we have to pay attention to it. I 
appreciate that is why we are having this hearing.
    My question of the panel, just a yes or no, the 2018 
primaries already happening across the country, general 
election 139 days away. You are on the front lines. Confirm, 
yes or no, do you agree elections are a potential target and, 
therefore, you see this as a priority? That is my question.
    Secretary----
    Mr. Ashcroft. Primary elections are a very big priority to 
us, and we have already started implementing things.
    Senator Klobuchar. Good. But do you see election security 
as a priority?
    Mr. Ashcroft. I think that is a very important topic, and 
that is why we have been working for quite a while.
    Senator Klobuchar. Okay. Sure.
    Mr. Condos. Simply put, yes.
    Senator Klobuchar. Okay.
    Mr. Simon. Yes.
    Senator Klobuchar. Okay.
    Mr. Masterson. Yes.
    Senator Klobuchar. Okay. Secretary Ashcroft, from your 
testimony, it sounded like you believe that information sharing 
from the Government to the states is important and that it 
should be improved. Do you want to--you can elaborate on that.
    Mr. Ashcroft. Yes. There have been serious problems with 
prior individuals in DHS. We had a NASS meeting last year where 
DHS reported that they had told states about instances, but 
they couldn't tell us who they had told. They hadn't told chief 
election officials. They might have told the chief technology 
official. They might have told a local election official.
    We have had problems with things being classified far above 
what they should be classified. They couldn't tell that to 
election authorities, and we couldn't respond.
    Senator Klobuchar. Yes, seen that. Very good.
    Mr. Ashcroft. Sorry.
    Senator Klobuchar. No, no. It is just very--I mean, I said 
I have seen that, and that is well put and must be incredibly 
frustrating when you are trying to do your job.
    We discussed already, Secretary Condos, the post-election 
audit process. We talked about paper ballots and how important 
this money is.
    Mr. Masterson, in a recent article, you wrote about some of 
the great work election officials are doing around the country. 
Do you believe that state and local election officials can 
benefit from this sharing that we talked about? This is not 
just the immediate information about the threat that we need to 
have happen, but also best practices.
    Mr. Masterson. Absolutely, yes.
    Senator Klobuchar. Okay, very good. Well, I went through 
all those because those are the elements of our Secure 
Elections Act. Very tricky, huh? We are just hoping that we can 
get this through, and I know Senator Lankford is working very 
hard to do that.
    But thank you all.
    Chairman Blunt. Thank you, Senator Klobuchar.
    Let me start back to where I was a minute ago. In the 
Secure Elections Act, which is a work in progress apparently 
that we will take up at some point, one of the requirements 
there is that if an election agency has reason to believe that 
an election cyber incident has occurred with respect to the 
election system, they are to notify the Department. That would 
be the Department of Homeland Security. That is earlier defined 
as ``any incident, any incident involving an election system.''
    Clearly, from the numbers that have been shared here, that 
would be an unreasonable thing to do. I think maybe,
Mr. Masterson, maybe in the interest of time, we may just have 
to come back to you and your--the GCC and say how do we write 
that in a way that it makes sense? You obviously don't need 
1,000 a day or 100,000 a day notices that somebody is trying to 
get into our system.
    We need to figure that out. Do you want to comment on that?
    Mr. Masterson. Mr. Chairman, I would agree completely. I 
think finding that balance is something we have been discussing 
in the GCC. None of these folks or the locals need notice that 
their Microsoft patches are out of date, right? They are aware 
and working on that.
    What is the balance on notification with regard to threats, 
vulnerabilities, and incidents and finding that balance? So 
happy to report back and work with that.
    Chairman Blunt. Exactly. On the audit trail, do all three 
of your states require an audit trail? Do you require a paper 
ballot trail, yes or no?
    Mr. Ashcroft. Yes, we do.
    Mr. Condos. Yes, we do.
    Mr. Simon. Yes.
    Chairman Blunt. Same, the same response, yes or no, should 
the Federal Government make an audit trail, a paper audit trail 
a requirement to have Federal assistance?
    Mr. Ashcroft. I don't think so.
    Mr. Condos. I do think so.
    Mr. Simon. I think there is a Federal interest in making 
sure that there is some audit, some audit process.
    Chairman Blunt. Well, now what I am asking about is should 
there be a way to re-create the actual election itself? I don't 
know quite how to do that without paper, even if you had a 
machine that was not accessible to the Web.
    Mr. Ashcroft. I believe states are moving to do that 
without Federal legislation. That is why I don't think Federal 
legislation needs to be done on that.
    Chairman Blunt. But in all three of these cases, you have 
that. On the audit requirement, how specific do you think that 
needs to be? If we had a--in this bill, there is, I think, a 
specific--you have 5 percent. Should that be left up to you, or 
should we tell you whether 5 percent is enough or not, 
depending on how close the election was?
    Mr. Condos. That is a great question, Senator, and I think 
that really there should be some flexibility in the type of 
audit as well. I mean, we hear a lot these days about risk-
limited audits. Risk-limited audits are a great way of doing it 
if you have the systems in place that allow you to do it, and 
right now, there is only a handful of states that could 
actually do that.
    The system that we use, as I said, we are actually talking 
internally about increasing the 5 percent to maybe 8 percent or 
even 10 percent of our towns post election. We feel very 
confident that it is actually even better than a risk-limited 
audit because it actually looks at 100 percent of the ballots 
that are cast in a town and 100 percent of the races. So you 
are auditing the entire ballot bag essentially at that time.
    Chairman Blunt. Any comments from the two of you on that?
    Mr. Ashcroft. When I was teaching, I taught statistics. I 
think that the language should just give probability intervals 
or confidence intervals as opposed to a specific percentage. 
For a very close race, you need to look at more. If it is an 
80-20 race, you don't need to look at as many ballots for 
people to have confidence.
    Chairman Blunt. Secretary Simon?
    Mr. Simon. Senator, I would say the more flexibility, the 
better. There are states, without throwing any under the bus 
here, that are not represented here today. They don't have 
really any or any meaningful sort of audit, and it strikes me 
that there is a Federal interest in making sure that there is 
some audit process.
    Chairman Blunt. When you do an audit, do you count the 
ballots the same way they were counted on election day?
    Mr. Simon. Yes.
    Chairman Blunt. How about you?
    Mr. Condos. We use a completely different system, 
completely different tabulators.
    Chairman Blunt. But you don't hand count them or anything? 
You still count them----
    Mr. Condos. No. In fact, in our experience, the hand 
counting has actually proved to be the most error.
    Chairman Blunt. Secretary Ashcroft?
    Mr. Ashcroft. We don't hand count everything, although 
there are times when we do, and we are working with the local 
election authorities on those rules.
    Chairman Blunt. Would you give a direction in that post-
election audit to election authorities locally, and they do the 
recount, or you do the recount?
    Mr. Ashcroft. The local election authorities do the 
recount.
    Chairman Blunt. How about with you?
    Mr. Condos. We do the--we do the audit entirely.
    Chairman Blunt. The ballots come to you in the State 
capitol, and you do the audit, or you go to where the ballots 
are?
    Mr. Condos. We do a public audit. We use the auditorium in 
the Governor's building, and we have the ballots delivered to 
us by the local boards of civil authority from each of the 
towns that have been randomly selected. They deliver those 
ballots to us. We do our work, seal those ballots back up in 
the bag, and get them delivered back to the towns.
    Chairman Blunt. How do you do it, Secretary Simon?
    Mr. Simon. Senator, that is done at the local level, not by 
our office. But we then followup with a second step some weeks 
later and do what is called a post-election review of that 
audit.
    Chairman Blunt. Right. All right. I think there will be 
more questions for the record, and certainly, Secretary 
Ashcroft and I are really glad that all these states have these 
great good government traditions. Our tradition is not quite 
that great. If you looked at the 2000 Governor's race in 
Missouri, I think there is a post-election investigation that 
finds out lots of people voted who shouldn't have, including a 
dog.
    We don't know exactly how the dog voted, but the dog was 
the person--was the registered voter, and the ballot was cast. 
So, you know, we are not--just to get this discussion where I 
think it should be, the Federal Government is not about to do 
things that encourage voter fraud, and the discussion that 
voter fraud doesn't happen is not really before the committee 
today, but I look forward to your reports back of what kind of 
voter fraud you have had.
    I think, Secretary Ashcroft, within the last year, we had 
one election that was set aside by a court, two elections, 
according to Secretary Ashcroft, set aside by a court, and then 
they had to have the election again. Was that absentee voter 
fraud, or was that voter fraud at the voting place?
    Mr. Ashcroft. It had to do with the absentee ballots. There 
were serious allegations of absentee voter fraud. They didn't 
have to prove the voter fraud. There was enough smoke that the 
court said redo it.
    Chairman Blunt. We even have courts in our state that say 
you have to have the election over again. I guess we just have 
a burden that Illinois doesn't have or other states that don't 
think this is ever a problem. It is a problem. It happens not 
to be the problem we are dealing with in this bill, in this 
hearing, or right now.
    Thank all of you for coming. We have got a vote coming up 
before too long, so if our next panel will come up, we will 
have some questions for our local election officials, one of 
which is from the Illinois jurisdiction that somebody actually 
got into, as opposed to the 21 jurisdictions that people tried 
to get into.
    [Pause.]
    Chairman Blunt. All right. Our two witnesses here are Noah 
Praetz, who is the Director of Elections working under Cook 
County Clerk David Orr. I am not quite sure, but we are going 
to find out if it was your jurisdiction or another one that 
somebody actually got into, Mr. Praetz.
    And Shane Schoeller from Springfield, Missouri, where I 
live and vote and has a job I once had. Let us start with Mr. 
Praetz and then Mr. Schoeller, and we will have a few questions 
for both of you.

 OPENING STATEMENT OF NOAH PRAETZ, DIRECTOR OF ELECTIONS, COOK 
                        COUNTY, ILLINOIS

    Mr. Praetz. Thank you, Chairman Blunt, Ranking Member 
Klobuchar.
    My name is Noah Praetz. I am the Director of Elections in 
Cook County, Illinois, and it is a real honor to be here.
    As election administrators, when we certify results, we 
help bestow not just power, but legitimacy. Legitimacy that 
comes from the essential American belief that our elections 
reflect a trusted and true accounting of voter choices. That 
legitimacy must be secured.
    Election officials have been working and securing votes and 
voter records for a very long time. When I started in the 
business prior to 2000, we served mostly as logistics managers, 
like wedding planners, making sure the right lists of people 
came together in the right place with the right stuff. After 
Bush v. Gore, though, and the Help America Vote Act, a new era 
of rules and voter technology was heralded in, and we became 
legal compliance and IT managers.
    But the 2016 election and all advice shared since show that 
sophisticated attacks are to be expected, and therefore, we 
must become cybersecurity managers. Spurred by this need to 
defend against foreign enemies, officials have been working 
successfully to find a good balance of Federal involvement in 
elections without trampling on the authority that states 
zealously guard. Good progress is being made.
    State officials who protect statewide voter registration 
lists everywhere and more systems in some states and who are 
often the spokespeople defending our institution deserve great 
credit, particularly their lead blocking up to the 2016 
election. However, and at the risk of being overly broad, I 
must underscore today that local election officials are the 
ones who control, secure, and run elections.
    We locals, 108 in Illinois and over 8,000 nationally, are 
on the front lines of this new battlefield. We deploy a variety 
of network-connected digital services such as voter 
registration systems, informational websites, unofficial 
election results displays, electronic poll books, election day 
command centers, not to mention the less-connected vote 
counting systems. Each of these is a target for our 
adversaries.
    Most of us are simply county officers, and we are facing 
down powerful, shadowy adversaries like Andy of Mayberry sent 
to repel an invading army. We need advice, support, and 
resources. First, for modern, defendable technology and routine 
hand-counted audits, which can give additional confidence that 
digital results are accurate. Second, and more critically 
today, we have a pressing need for top-notch security personnel 
with the skills to navigate the current cyber minefield.
    In Cook County, we have studied this, undertaken 
significant efforts at securing our infrastructure, and helping 
raise awareness broadly through the ecosystem. We conclude that 
to decrease the likelihood of successful attack, each election 
official must have access to an election security officer. Most 
election officials don't have that today.
    We suggest this be handled by a brigade of digital 
defenders or, as Homeland Security's Coordinating Council calls 
them, ``cyber navigators.'' These navigators should adopt a 
mantra of ``defend, detect, recover.'' They can help us improve 
defenses following the specific recommendations of the Center 
for Internet Security or the Defending Digital Democracy 
program at Harvard. They will also help us mature our breach 
detection techniques, and they will help mature our recovery 
plans for when attackers penetrate the first and second line.
    To accomplish this, the navigators will secure free support 
on offer currently from Homeland Security, state governments, 
and companies like Google and Cloudflare. They will work with 
state and county IT staff and with vendors who support locals 
in much of their support.
    Finally, they will help build a culture of security that 
can adapt to evolving threats. Incidentally, Illinois lawmakers 
recently required that half of the HAVA funds you just released 
be spent on a navigator program, and our state election 
officials are acting aggressively to create one.
    Voters across the country should feel broadly confident 
that we have resilient systems, and election officials are 
taking this problem very seriously. But voters should also 
understand that without continued investment in people and 
products, the possibility of a successful attack increases.
    Some losing candidates are already apt to call their 
defeats into doubt. A new digital breach, no matter how far 
removed from the vote counting system, could turn sore losers 
to cynicism, disbelief, even revolt. That is the reaction the 
enemies of the United States want.
    The bottom line is we cannot eliminate every chance of 
breach, but we can make sure that successful attacks are rare, 
and we can provide assurances that we are prepared to recover 
quickly when they do happen. We can do this with support at the 
local level.
    But democracy is not perfect. As Churchill noted, it is the 
worst form of government except for all the others. We need to 
protect it, and we will regret it if our democracy is damaged 
because we looked away and failed to support it at this 
critical moment.
    Thank you, and I look forward to any questions.
    [The prepared statement of Mr. Praetz was submitted for the 
record.]
    Chairman Blunt. Thank you, Mr. Praetz.
    Mr. Schoeller?

  OPENING STATEMENT OF SHANE SCHOELLER, CLERK, GREENE COUNTY, 
                            MISSOURI

    Mr. Schoeller. Good morning, Mr. Chairman, Ranking Member 
Klobuchar, and distinguished members of the committee. Thank 
you for the opportunity to offer testimony this morning.
    My name is Shane Schoeller. I am honored to serve as the 
County Clerk in Greene County, Missouri.
    The county clerk in each county of our state is responsible 
for several administrative duties for the county. These duties 
include tax administration, Secretary to the Board of 
Equalization, licensing and notary issuance, county payroll and 
benefits administration, retention and archival of county 
records, voter registration, and election administration. 
Election administration is clearly the most visible duty of all 
that I just mentioned.
    It is a duty that my fellow county clerks and election 
directors across the state take seriously as we work tirelessly 
to ensure the correct ballot is given to each voter, and then 
the results of their cast ballots being correctly tabulated.
    It is important in the context of this testimony today to 
recognize that each state is unique in how their elections are 
administered at the local level, but not unique in being 
responsible for several other administrative duties. This 
effort in large part is decentralized state by state and county 
by county, which is an advantage in protecting against a broad-
based systemic cyberattack on our elections.
    The advantage of being decentralized for local election 
officials is also a challenge as it relates to cybersecurity 
threats to electronic voter registration data and the 
electronic tabulation of election results on election night. It 
is fair to say that the majority of county clerks in the rural 
areas of Missouri are depending on the efforts of their 
election service providers who provide their voting equipment 
services, the secretary of state's office, and the coordinated 
efforts of the Department of Homeland Security and the Election 
Assistance Commission to be their firewall for protection 
against incoming cybersecurity threats.
    I currently serve on the advisory board for the EAC. I 
appreciate their continued and increasing coordinated efforts 
to provide critical information on security preparedness to 
state and local election officials. Their work with the DHS and 
the National Association of Secretaries of State is welcome. I 
am optimistic that these good efforts will continue and be 
further enhanced through one of the provisions within the 
Secure Elections Act that would change the `` Technical 
Guidelines Development Committee'' to the `` Technical Advisory 
Board'' and, because of that, include cybersecurity experts as 
part of it.
    I believe changes like this are needed to build on the 
current information sharing that was not in place prior to the 
2016 election to continue improving how cybersecurity 
information is shared to local election officials in a common 
sense and productive way, to help mitigate possible 
cyberattacks in future elections.
    I do want to address one area of concern in the Secure 
Elections Act, and that is on page 23, lines 3, 4, and 5. It 
says, ``Each election result is determined by tabulating marked 
ballots, hand or device.'' I strongly recommend for post-
election auditing purposes that it state ``marked paper 
ballots,'' as I believe the opportunity for fraud in an 
electronic ballot casting system that does not have a paper 
trail is too great.
    To this point, part of the post-audit requirements in our 
state's regulatory code requires a manual count of the voted 
paper ballots based on a random drawing by a bipartisan team 
not less than 5 percent of the voting precincts on election 
day. Being able to share with voters that the paper ballots 
they cast were randomly selected to be recounted by hand during 
the post audit was critical to helping earn confidence that the 
certified election results in the 2016 general election were 
accurate.
    An area of concern that has received less focus, but cannot 
be underestimated, is the possibility of an attempted 
cyberattack to alter electronic-based voter rosters that are 
now commonly used in place of paper-based voter rosters when 
checking in voters on election day. The benefits of checking in 
a voter on an iPad or tablet-based check-in system have been 
enormous, and it is a convenience voters really appreciate as 
they see their wait times reduced.
    This convenience, though, can quickly evaporate and become 
the source of real issues on election day if voters who have 
not voted are informed on election day that they already have 
voted, or their name cannot be found to check them in to vote. 
I am sure you would agree with me that this is the perfect 
recipe for voters to become very angry and for real chaos to 
ensue.
    As we think through these issues, it is evident that a 
majority of our local election officials, who balance so many 
administrative duties for their county and often have no 
resources available to monitor and prevent incoming 
cyberattacks, need outside help from the DHS and their 
secretary of state to help them withstand future cyber threats 
through their voter registration data and the tabulated 
election results on election night.
    It is for these reasons that I recommend that the DHS, in 
coordination with our secretaries of state, assess state by 
state where the weakest vulnerabilities are county by county. 
Based on the information learned, I believe the necessary cyber 
defense protection can be provided where it is needed to help 
ensure the integrity of our elections this November will be 
protected before it is too late.
    As I conclude my remarks, I want to emphasize that I firmly 
believe that elections are the cornerstone of our freedom, and 
we must all work together to protect that freedom and its 
integrity every time a voter cast his or her ballot. I believe 
we are up to the task if we do it together.
    Thank you for holding today's committee hearing to assess 
the state of election security preparation in our Nation as we 
prepare for this November, and I look forward to answering the 
committee's questions.
    [The prepared statement of Mr. Schoeller was submitted for 
the record.]
    Chairman Blunt. Thank you, Mr. Schoeller.
    How many registered voters approximately do you have in 
Greene County?
    Mr. Schoeller. Just a little over 189,000.
    Chairman Blunt. How about you in Cook County?
    Mr. Praetz. One-point-five million.
    Chairman Blunt. Was it your system that was penetrated by 
some--by a hacker we believe to have been a Russian hacker?
    Mr. Praetz. It was a statewide system. Illinois is a little 
bit different. We are----
    Chairman Blunt. The State Director of Elections would have 
been the person that we would have seen on 60 Minutes not too 
long ago talking about this?
    Mr. Praetz. Yes, sir. That was him. Yes.
    Chairman Blunt. It was the statewide Illinois system?
    Mr. Praetz. That is correct.
    Chairman Blunt. Is it your view that more problems are 
likely to be created on election day by getting into the 
registration system than the likelihood of getting into the 
counting system?
    Mr. Praetz. Sure. I mean, we have got a broad threat 
surface area. We rely on a number of different systems. The 
network connectivity of voter registration systems is certainly 
much greater than voting systems and, therefore, more--an 
easier target for adversaries.
    Chairman Blunt. Mr. Schoeller?
    Mr. Schoeller. I would concur, and certainly that is an 
issue that happened in Durham County, North Carolina, in 2016, 
very small scale. But if you would increase that scale, you 
could easily see the issues it would create on the day of an 
election.
    Chairman Blunt. The option of provisional voting, as 
Senator Durbin suggested earlier, it would quickly sort of 
overwhelm the system if you had all kinds of people trying to 
cast their ballot?
    Mr. Schoeller. Correct. We are looking at a back-up system 
in case that would occur for our county. But clearly, even that 
is going to be fairly technical and hard to accomplish. But we 
are looking at that, should that occur.
    Mr. Praetz. If I might point out, please, that in Illinois, 
we have got election day registration, which, in and of itself, 
is a highly resilient policy decision that our lawmakers made, 
particularly in the event of an issue with the voter 
registration data base. Clearly, lines become a problem. We 
have been modeling--our election day registration now is about 
10 seconds longer than our normal check-in.
    There are ways--there are ways to do it, but it is a policy 
decision that not only helps the voters, but it makes the 
security of the whole system much more resilient.
    Chairman Blunt. I assume if you could register in 10 
seconds, you could also do what you need to to cast a 
provisional ballot pretty quickly then?
    Mr. Praetz. Sure. That is true.
    Chairman Blunt. If that same system was designed to 
accommodate that?
    Mr. Praetz. Yes, sir. Absolutely. It is 10 seconds marginal 
increase.
    Chairman Blunt. Yes.
    Mr. Praetz. I would love to be able to get voters through 
in 10 seconds, but that is not the case.
    Chairman Blunt. Mr. Schoeller?
    Mr. Schoeller. Right now, our provisional ballot process 
would not allow for that to happen quickly because of the 
process in filling out the envelope, all the details that go 
along with that. We are certainly--Illinois may be ahead of us 
in that particular regard.
    Chairman Blunt. Do you have a way, Mr. Schoeller, to 
monitor how many people might be trying to access your system 
from outside the system?
    Mr. Schoeller. That would be through our information 
systems team, and they keep that information pretty close to 
the vest, but we are fortunate in Greene County, we have that 
type of help available. But clearly, in our smaller counties, I 
was visiting with one of my fellow county clerks before today, 
and they said we are not prepared, if something of this scale 
would occur, to be able to defend themselves.
    Chairman Blunt. Now I was in a location in St. Louis a 
couple of weeks ago where they have--really they are the 
principal provider of the iPad voting day system.
    Mr. Schoeller. Yes.
    Chairman Blunt. They were just transitioning 51 counties in 
Minnesota to that system. They just got the entire country of 
Canada as a client. One of the things they were doing while I 
was there, they had three summer interns and two other people 
who just all the time tried to get into the systems that they 
are responsible for.
    You know, this is somebody who spends all day every day 
trying to secure a system by trying to penetrate a system. If 
they find those spots, so you have people doing that.
    Mr. Praetz. Sure. I mean, the red team attacks are very 
valuable sort of efforts to ensure that your defenses are 
holding up as you would expect. Homeland Security has offered 
that to all the states and locals. We just had a risk and 
vulnerability assessment through them, and it is quite 
interesting what the good guys are capable of as well.
    Chairman Blunt. But the good guys have to be--you know, our 
whole cyber structure is the good guys have to be successful 
all the time.
    Mr. Praetz. Every single time.
    Chairman Blunt. The bad guys only have to be successful 
once to do--to do great damage. Before I turn to Senator 
Klobuchar,
Mr. Schoeller, you would like to see a paper ballot as part of 
a national requirement?
    Mr. Schoeller. I would in terms of as you think about the 
measurement that is used in all the different things, but 
particularly when you are visiting the voters. A voter wants to 
see something tangible, and I think the tangibility of paper is 
going to give them much greater confidence. I think when it 
comes to Federal elections, not just for President, but for the 
balance of Congress and the House and the Senate, that being 
able to give them that assurance that, yes, we can always go 
back and look at a paper trail versus something that is on a 
screen that is based inside a system that we have to trust. I 
think voters are going to appreciate that type of assurance.
    Certainly, when I visit voters back home, I rarely have a 
disagreement. Matter of fact, I can't think of one time a voter 
has disagreed with me in that regard, regardless of party.
    Chairman Blunt. When you do an audit of the post-election 
audit, you count those by hand or with counting equipment?
    Mr. Schoeller. We--at no less than 5 percent of the voting 
precincts on the day of the election, we do--and they are 
bipartisan teams. They are recounted by hand. One of the things 
that I think is important is that even if you do a post audit 
with a machine, how would you know if something has been 
compromised if you can't at least compare the results of the 
paper ballot, and I think that is the assurance it gives.
    Clearly, the machine, when you have an accurate election, 
does do a better job of counting the ballots. I am talking 
about in the case where, clearly, fraud has occurred. Then the 
paper ballot is going to be the evidence you need in terms of 
if your system inside that machine is compromised.
    Chairman Blunt. Thank you.
    Senator Klobuchar?
    Senator Klobuchar. Thank you very much, Mr. Chairman.
    I think for a while people were talking about, well, why 
doesn't everyone just vote from home, which is great when you 
can mail in a ballot. We know that. But vote from home just 
from your computer, and that would mean no paper records of 
anything. Could you comment about that?
    Mr. Praetz. I think that is 100 percent inappropriate for 
civil elections.
    Mr. Schoeller. I find it ironic because this is my first 
term. When I ran for this office in 2014, that was actually a 
common theme that I heard.
    Senator Klobuchar. Right. I was hearing it, and I was--I 
kept thinking about our state with, I am not going to keep 
dwelling on it, with that high voter turnout. But you know, 
that involved the paper ballot----
    Mr. Schoeller. Right. That was incredible integrity.
    Senator Klobuchar. Incredible integrity. But it involved 
people, they could vote by mail, and we have made that even 
easier. But they had actual paper ballots that they did, and 
then they were fed into this machine to count with auditing. 
But you are right. That is what people were talking about. Why 
can't you just do it from your home computer and have no back-
up, right?
    Mr. Schoeller. Right. That was one of the things I actually 
had to disagree when that viewpoint was put forth, particularly 
in one city I remember. Even after I became elected, I went to 
a conference of other elected officials, and there was a group 
of speakers, and they all were talking about this. There was 
actually one speaker----
    Senator Klobuchar. Like voting from Facebook.
    Mr. Schoeller. Correct.
    Senator Klobuchar. Just kidding. That was a little----
    Mr. Schoeller. But they actually disagreed, and I went up 
and I think I was the only election official that day--this was 
prior to 2016--that didn't think that was a good idea. But I 
think we have evidence now from 2016 that clearly that is a 
convenience that we just can't afford.
    Senator Klobuchar. Very good. Mr. Schoeller, in your 
testimony, you supported the Secure Elections Act's increase of 
cybersecurity expertise, what is currently the Technical 
Guidelines Development Committee. Additionally, you support 
even more robust auditing provisions.
    Mr. Schoeller. Yes.
    Senator Klobuchar. We talked about that, and so you think 
that that is very important to have this post-election audit. 
Correct?
    Mr. Schoeller. I do. Certainly--and one of the things I 
wanted to recognize is when we do these audits, they are very 
transparent. They are very open to the public, and that is 
something that you could not put a value on.
    Senator Klobuchar. Mr. Praetz, thank you for supporting the 
Secure Elections Act in your testimony, and I think it must be 
hard to be always used as the example of Illinois, that they 
got that close. But it must make it more of a concern in your 
state when you know that happened.
    Mr. Praetz. Yes. Certainly. It hits home.
    Senator Klobuchar. Very good. Are people aware of it, do 
you think?
    Mr. Praetz. Oh, yes. I mean, you know, our voters come to 
us, and we are lucky in Illinois because we can tell a strong 
story. We start at the end. We have got a piece of paper that 
every voter looked at. Worst-case scenario, a Sony-type attack 
with full meltdown of all systems, we can re-create an election 
that is trusted and true.
    Do you want to keep talking about election security? Most 
people walk away. Some will engage.
    If we were able to talk that way nationally, this would be 
probably the last hearing of this sort we will have. I mean, it 
is a very effective narrative.
    Senator Klobuchar. Yes. Do voters get worried about having 
their private data taken?
    Mr. Praetz. Sure. Certainly.
    Senator Klobuchar. Which is a different issue, of course, 
than trying to tamper.
    Mr. Praetz. It is an entirely different issue.
    Senator Klobuchar. I mean, it could happen at the same 
time, but it is a different concern.
    Mr. Praetz. Now, luckily, we have the datasets we keep on 
voters don't have a tremendous amount of PII, but it is 
certainly something that we protect.
    Senator Klobuchar. Of course, we have been talking about 
the fact that Homeland Security didn't come forward with the 
information to the state. When did you find out about the--
    Mr. Praetz. Well, so, again, it happened at the state 
level, and I know as much as anybody else from the 60 Minutes 
story. They shut down the statewide voter registration system 
sometime in the summer, and then we started asking questions.
    We are a bottom-up state. Each county in Illinois has their 
own voter registration system, and then we share data up to the 
State Board of Elections, which also is another sort of 
resilient policy choice because even if the state board system 
had been taken down, we would all have been to operate pretty 
seamlessly.
    Senator Klobuchar. I think there is just a secondary 
concern that people aren't always focused on is that the 
hacking could also result in stealing of private voter 
information.
    Mr. Praetz. Of course.
    Senator Klobuchar. The people's addresses, stuff like that. 
We have been talking a lot about DHS, but you both mentioned 
EAC briefly in your testimony, and could you talk about the 
role that the Election Commission has played in improving 
communications around cybersecurity?
    Mr. Praetz. Certainly. I sit on the Executive Committee of 
the Government Coordinating Council, and I sit alongside the 
chairman of the EAC and the president of NASS and NASED, and 
this sort of confederation is working really well to--for all 
of us to sort of figure out our lanes. What has become clear to 
everybody, including Homeland Security, is the vital role that 
EAC has played. For 15 years, they have been a significant 
partner. They are a trusted source. I think DHS has been able 
to rely on them significantly, and we have certainly at the 
local level.
    Senator Klobuchar. Mr. Praetz, you discussed cyber 
navigators extensively in your testimony, and Mr. Schoeller 
mentioned that not all election authorities have access to a 
team dedicated to protecting them, which you noted. Can you 
both discuss how cyber navigators can provide local election 
officials with a much-needed resource and expertise?
    Mr. Schoeller. I think that is the issue. You mentioned the 
EAC. You know, they have a number of white papers. They have a 
number of information that is out there available. They are 
trying to do all they can.
    I think the issue, and this is in my broader testimony that 
I have included for the record, is that oftentimes a local 
election official, they are so overtasked with all these 
various administrative duties, they don't have a budget to be 
able to handle the duties they have, they don't have access to 
that information just by the logistical way their job occurs 
every single day.
    That is why I think if we can have programs that are there 
to help, like Noah mentioned this morning, I think that is 
going to be the type of help that our local election officials 
appreciate. Because they are concerned. They are worried. They 
realize they don't have the technical background or 
capabilities or the local help to be able to get that 
protection they need.
    One of the things that I want to mention, I think the other 
issue is that sometimes they will go out to somebody there 
locally to get help. But how do they know if the help they are 
being provided is what they need? I think that is another 
thing, and part of helping educate local election officials is, 
okay, this is a product or this is a company you can trust.
    I mean, we get a lot of information from companies, you 
know, telling us they will help us in terms of cybersecurity, 
but what product is actually really needed versus what would we 
just be spending money on that would be frivolous and not 
really protect us at the end of the day?
    Senator Klobuchar. Very good. Thank you to both of you.
    Chairman Blunt. My last question for both of you, and there 
may be questions in writing, do you see any potential for 
unnecessary duplication with the EAC and the new involvement of 
Homeland Security? If you do, is there a way we can 
thoughtfully try to deal with that?
    Mr. Praetz. I have no concerns there. I think Homeland 
Security has got quite a broad plate of responsibilities. Now I 
am glad that they are able to share some of their cyber-
specific resources. I think it is critical to have an 
institution dedicated solely to election support that will not 
get pulled into other issues.
    Chairman Blunt. Mr. Schoeller?
    Mr. Schoeller. I think the issue is broad enough that the 
coordination is good, and I think the EAC terms of the other 
areas they help out with in terms of the clearing house for 
best practices of the local election official, those types of 
things they provide that DHS is not going to provide. But I 
think when it comes to protecting ourselves in terms of the 
cyber world, I don't think you can be too broad at this point.
    Chairman Blunt. As an interface, you would be comfortable 
reporting things to EAC that then they would report on to 
Homeland Security if they decided necessary?
    Mr. Schoeller. Yes.
    Mr. Praetz. That is correct. We didn't sort of in the 
information-sharing protocols that the GCC has developed, that 
is not the exact design, but I have zero doubt that the 
officials at the EAC and the DHS that are working on this will 
share information appropriately with each other.
    Chairman Blunt. Well, thank all of you. We have started a 
couple of votes that we are going to need to go to, but we 
appreciate you and the other witnesses being with us today.
    The record will be open for a week from today, and there 
may be some questions that come to you in writing. If they do, 
we would hope you would respond to those as quickly as 
possible.
    [The information referred to was submitted for the record.]
    Chairman Blunt. The hearing is closed.
    [Whereupon, at 12:38 p.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                    ELECTION SECURITY PREPARATIONS:
                    FEDERAL AND VENDOR PERSPECTIVES

                              ----------                              


                        WEDNESDAY, JULY 11, 2018

                      United States Senate,
             Committee on Rules and Administration,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:31 a.m., in 
Room SR-301, Russell Senate Office Building, Hon. Roy Blunt, 
Chairman of the committee, presiding.
    Present: Senators Blunt, Cruz, Capito, Wicker, Fischer, 
Klobuchar, Udall, Warner, King, and Cortez Masto.
    Also Present: Senators Lankford and Wyden.

  OPENING STATEMENT OF HONORABLE ROY BLUNT, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF MISSOURI

    Chairman Blunt. Good morning. The committee will come to 
order.
    It is great to welcome our witnesses today. I am 
particularly grateful that two of our colleagues from the 
Senate will start us off with some observations they have about 
this critically important issue.
    Also, I am glad that my fellow Missourian, Scott 
Leiendecker, is here. I had a chance to learn more about his 
growing company in this area a few weeks ago, and look forward 
to his testimony, as I do the testimony of all the others.
    This is the second in a series of hearings on election 
security. As we know, during the 2016 election cycle, state and 
local officials were tested like they had not been tested 
before. Even after the election, were more aware of the threats 
that were out there and their need to have better information 
about those threats, and more help as to how to deal with them.
    At our last hearing, the local officials told us that they 
needed timely and actionable information. They needed cyber 
security resources as well as technical assistance.
    Today, we turn to the Federal officials who are in charge 
of helping provide that kind of assistance and looking at how 
they can better provide those resources, as well as private 
sector election vendors.
    Efforts to secure American elections are not new. Following 
the 2000 election, the 2002 Help America Vote Act established 
the United States Election Assistance Commission to assist 
states in replacing voting systems and improving election 
administration.
    HAVA, as that bill was called, also created a partnership 
between the Election Assistance Commission and the National 
Institute of Standards and Technology to create guidance for 
voting systems and to certify those voting systems.
    In January 2017, the Department of Homeland Security 
designated, after the election year had past, election 
infrastructure as critical infrastructure. We are now in the 
first election series since that designation was made.
    At our last hearing, we heard how this designation would 
affect information sharing between state, local, and Federal 
Governments. Today, we look forward to hearing more about the 
other aspects of that designation, which is the formalization 
of information sharing and collaboration between private 
entities and the Federal Government through the Sector 
Coordinating Council.
    More recently, in the Fiscal Year spending bill, Congress 
appropriated $380 million to the U.S. Election Assistance 
Commission to help states enhance their election 
infrastructure. About 49 states and territories have already 
requested approximately $350 million of that money. In many 
cases, they have already received the money they have asked 
for.
    Some of our goals today are to:
    <bullet> Find out more about the tools that are available 
that the Federal Government can provide state and local 
officials;
    <bullet> Find out about information sharing that is 
occurring and should occur between state, Federal, and local 
election officials;
    <bullet> To learn more about what we might do to encourage 
cyber security best practices.
    We are also pleased to have, again, Senator Wyden and 
Senator Lankford here. But before I turn to them, I will turn 
to Senator Klobuchar for any opening remarks she wants to make.

 OPENING STATEMENT OF HONORABLE AMY KLOBUCHAR, A UNITED STATES 
              SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you, Mr. Chairman, for holding 
this important hearing.
    Thank you, to all of you.
    I would like to also thank Senator Wyden for being here. I 
am glad this worked out, and Senator Lankford for your work. I 
know you are both on the Intelligence Committee.
    I know how incredibly important this topic is, and how 
there is a lot of focus on what has happened and what did 
happen. There should be. But we also have to keep our eyes 
moving forward on how we protect ourselves from this not 
happening again.
    I am particularly pleased with the work that Senator 
Lankford and I have done on the Secure Elections Act, as he 
will describe. This legislation would improve government 
sharing between election officials and the Federal Government, 
provide vital resources and expertise to states, and make it 
easier to confirm election outcomes should there be back-up 
paper ballots audits.
    The legislation has significant bipartisan support. We have 
painstakingly spent the last 18 months working with state and 
Federal officials. I know we have made significant changes to 
the legislation in listening to people, especially to the 
secretaries of states, around the country to meet their 
concerns.
    It is truly vital that we work together, and this is one 
effort, but there are so many others going on, especially with 
the way the Intelligence Committee has handled this 
investigation, the way Senator Blunt and I want to handle this 
going forward on the election side. It is truly important that 
this be bipartisan.
    We had it in a hearing in front of Judiciary recently and 
it became very clear that while a lot of the focus on the 
interference has been about the general election in 2016, it 
was also going on in the primary, specifically targeted at 
Senator Rubio's campaign and others.
    I think it is very important for us to keep telling those 
stories and to remind ourselves that it was not just going on 
with one party versus another. They were doing things that 
affected the primary. They were doing things that were actually 
outside of the actual election involving causes, and groups, 
and people, and trying to turn people against each other 
basically; whether it was the pipeline in North Dakota or 
whether it was rallies in Florida.
    The state and local election officials who are 
administering elections on the frontlines, they are working 
hard to ensure our election systems are secure. I know my 
Secretary of State, Steve Simon, who was here recently, would 
tell you that he and his colleagues across the country are all 
very focused on this.
    During our hearing last month, we heard from some of those 
officials about the challenges they face and the need for 
additional resources in light of the continuing threat posed by 
Russia and other potential adversaries.
    Today, we will hear from Federal officials and 
representatives from voting systems companies. Currently, over 
90 percent of Americans vote on machines from three companies. 
I am pleased that one of these companies, Hart InterCivic, is 
here today, but I wish that the other two companies could have 
also joined us.
    Given the threats we face, and the billions of Federal and 
state tax dollars that go to these companies, oversight is 
vital to ensure that they are providing secure and reliable 
voting machines and services to others.
    Congress must do everything we can to defend our elections 
and bolster Americans' confidence in our democratic process.
    I am glad we have a diffuse system with different systems 
in different states' jurisdictions because then one hack will 
not ruin everything. But we know that one hack in one county in 
one state will jar peoples' confidence. They came close last 
time trying to hack into 21 states, got as close as the voter 
list in Illinois, and we just do not want this to happen again.
    Thank you very much, Mr. Chairman.
    Chairman Blunt. Well, thank you, Senator Klobuchar, and I 
look forward to working with you on this.
    Certainly, we have both worked with Senator Lankford and 
Senator Wyden, who are on Intelligence with me, care deeply 
about these issues, have had lots of time to think about them. 
We are glad they are here to share some of those thoughts 
today.
    Senator Wyden, if you would like to start, I would like for 
you to go first.

   OPENING STATEMENT OF HONORABLE RON WYDEN, A UNITED STATES 
                SENATOR FROM THE STATE OF OREGON

    Senator Wyden. Thank you very much, Mr. Chairman.
    Mr. Chairman, first, let me thank you for your 
thoughtfulness in making it possible for me to come today, and 
I very much look forward to working with you.
    Senator Klobuchar and I have discussed these issues as well 
over the years.
    Mr. Chairman, you have a busy schedule, so I am just going 
to try and make a few key points.
    According to the latest numbers, at least 44 million 
Americans, and perhaps millions more, have no choice but to use 
insecure voting machines that make hackers and hostile foreign 
governments salivate.
    It is, in my view, inexcusable that our democracy depends 
on such hackable voting technology made by a handful of 
companies that have been able to evade oversight. In fact, have 
actually been stonewalling the Congress for years.
    The efforts by Russia, obviously, during the 2016 election 
highlight the vulnerability of our election infrastructure and 
the serious threats that our people face.
    As you and I talk, Mr. Chairman, I recently introduced a 
new cyber security bill to focus on the reliability and 
accuracy of Federal elections. It seems to me enormously 
important, given the prospect that these foreign hackers can 
get access and can hack the voting machines used by the states.
    My legislation focuses on two common sense measures that 
are backed by the overwhelming number of cyber security experts 
in our country: Paper ballots and risk-limiting audits.
    I wrote this bill in spite of this campaign of ducking, and 
bobbing, and weaving, really stonewalling from the major voting 
machine companies. Over the past year you and I have touched on 
this as a member of the Intelligence Committee--I reached out 
to cyber security experts, election officials, and others.
    I wrote the big voting machine companies asking them basic 
questions about their cyber security. These were not 
complicated questions. They were, ``Have you been hacked?'' 
``Do you employ in-house cyber experts?'' Really, the basic, 
sort of ``cyber hygiene 101.''
    The companies refused to answer how or even if they are 
protecting their systems and the votes of the American people.
    Earlier this year, ``The New York Times'' published a story 
revealing that ES&S, the largest voting machine manufacturer, 
was selling devices that came preinstalled with modems and 
remote monitoring software. The experts say remote access to 
election infrastructure is now a five-alarm crisis when it 
comes to security.
    My view is you could only make it worse if you were to 
leave unguarded ballot boxes in Moscow and Beijing. I kept 
writing to the company, following up with the same common sense 
questions. They ignored those as well.
    It is clear to me, Mr. Chairman, these companies want to be 
gatekeepers of our democracy, but they seem completely 
uninterested in safeguarding it.
    Five states exclusively use voting machines that do not 
produce a paper trail. The only record of the votes cast is a 
digital record, which could be hacked and which is impossible 
to audit reliably. That strikes me as a prescription for 
disaster.
    Americans need to have paper ballots marked by hand. Until 
that system is adopted, every election that goes by is yet 
another election that foreign governments, hostile foreign 
governments including Russia, can hack.
    Earlier this year, the Congress appropriated $380 million 
to help states upgrade their election technology. The money is 
now in the hands of the Election Assistance Commission and on 
the way to the states. It ought to be used to bolster security. 
Unfortunately, it is not clear at all how the Election 
Assistance Commission is actually using the money to do this.
    My concern, as you and I have talked about, Mr. Chairman, 
is the states could go out and buy a whole lot more hackable 
technology from these stonewalling voting machine companies.
    Let me just wrap up by saying before we conclude, the 
statements of the Commissioner who is number two at the 
commission, Commissioner McCormick, also concern me greatly. 
She stated publicly last year that she disagrees with the 
intelligence community that Russia sought to influence the 2016 
election.
    Mr. Chairman, you and I have heard again and again that it 
is the view, and Senator Lankford has heard this as well, it is 
the overwhelming view of the intelligence community that Russia 
sought to influence the 2016 election. I cannot for the life of 
me figure out why the number two official of the Election 
Assistance Commission is dismissing the analysis of the 
Government's and the Administration's intelligence experts.
    You can set aside the outcome of the 2016 election. No 
matter who you pulled the lever for the last time around, all 
of us here in the Senate have to care about defending our 
elections from foreign hackers going forward.
    Again, Mr. Chairman, I want to thank you for your courtesy 
and the time you and I have spent talking about this.
    I look forward to working with you in the days ahead.
    Chairman Blunt. Well, I look forward to you and I 
continuing to work on this, Senator Wyden, as I do with Senator 
Lankford.
    Senator Lankford, we are pleased you are here this morning 
as well.
    Senator Wyden. Mr. Chairman, I just want to apologize to my 
colleague for ducking out because I know he has something 
important to say. The Finance Committee is pending.
    I thank my colleague, and the Chair, and the Ranking 
Member.

OPENING STATEMENT OF HONORABLE JAMES LANKFORD, A UNITED STATES 
               SENATOR FOR THE STAKE OF OKLAHOMA

    Senator Lankford. Mr. Chairman, thank you for inviting me 
back again to the Rules Committee. It is good to be back in 
this conversation again. There is a lot that still needs to be 
done.
    Senator Klobuchar and I have worked very hard on the Secure 
Elections Act. This has been a work in progress that was 
written in pencil, so it could be used to be able to be erased, 
edited, rewritten, re-erased, reedited over and over again as 
we have gone through this multiple iterations of the Secure 
Elections Act.
    We do need to deal with the obvious threats that are coming 
at our Nation dealing with elections. We should have learned 
the lesson from 2016. Though this will take a long time to be 
able to roll out real results and responses over the course of 
our Nation, we do need to deal with these threats.
    The Secure Election Act tries to go focus on improving the 
ability of the states to be able to counter issues and threats 
that they face in the elections. Let me reiterate this.
    I have absolutely zero doubt that the Russians tried to 
influence our elections; that they were trying to engage in any 
way that they could to bring instability to our democracy. But 
I also have no question that our states are not only qualified 
to be able to handle the elections, but they are 
constitutionally responsible to be able to handle our 
elections. The states need to be able to continue to control 
elections.
    With Senator Klobuchar and others, what we have worked on 
together is to be able to form how do we head off this issue 
from coming at us again. It is not so much about the next 
election because, quite frankly, there is a lot of attention 
being paid to the next election.
    It is what is the election structure 20 years from now? 
Will we let our guard down? Will the focus not be there? To be 
able to put some processes in place to say, ``How do we make 
sure 20 years from now, we have not forgotten the lessons that 
we should have learned from 2016?''
    Some basic things have come out of that conversation. One 
is increasing the communication between the Federal Government 
and states. There was not near enough communication between the 
Federal Government and the states leading up to the 2016 time 
period.
    We also discovered there was not security clearance for 
individuals in the states, so when issues were discovered, 
there was no one to be able to communicate that with quickly 
that already had clearance.
    Many elections across the Nation do not have auditable 
elections. They are done completely electronically and there 
was no way to be able to audit it at the end of the election 
and determine did everything go correctly? It was simply a best 
guess of, ``Yes, everything looks like it went correctly,'' but 
there was no way to really know.
    There are many states that do risk-limiting audits after 
the election is over, but some states do not. When it is a 
Federal election, it is difficult if there is a threat to any 
one entity in any one state. That affects every other state as 
well.
    There are some basic things that can be done that we feel 
could be done and could be done still allowing states to be 
able to control their election structure, and to have 
flexibility on the type of election machines they want to have 
and the type of election systems that they want to have. It 
should be completely up to the states to be able to run that.
    Senator Klobuchar and I have worked very hard and have 
refined the Secure Elections Act. We have had a tremendous 
amount of feedback, as Senator Klobuchar mentioned before, from 
secretaries of states and heads of elections officials from the 
EAC and the DHS.
    We met with a bipartisan group of state secretaries in 
April, including the president of the National Association of 
Secretaries of State, Secretary Ashcroft from Missouri, 
Secretary Schedler from Louisiana, and Secretary Simon from 
Minnesota when we incorporated their advice.
    We have exceptional feedback, quite frankly, from the Chief 
Election Official in my state, Paul Ziriax, as well as former 
Election Assistance Commissioner Matt Masterson.
    We have also talked extensively to Secretary Nielsen from 
DHS and received a tremendous amount of feedback as well what 
DHS is doing.
    We do want to be able to see improvements and we do believe 
the coordinating councils can share a lot of that information 
with other states and with the Federal Government. But there 
are some simple things that can be in place that we feel do not 
usurp the authority of the states to be able to run their own 
elections, but do give us a secure election system for the 
future.
    Again, the issue is not so much 20/20. We are all paying 
attention and we are all watching. What would the elections be 
like 20 years from now? Will we still have a process in place 
that protects the elections when our guard is down?
    We think it is a wise idea to be able to continue that 
ongoing cooperation and communication so when issues are 
discovered, it can be shared state to state quickly. It can be 
shared from the state to the Federal Government and the Federal 
Government to the states. To be able to make sure we continue 
to protect our elections and to make them as secure as 
possible.
    Mr. Chairman, thank you, again for the invitation to be 
here and it is my honor to be able to join this conversation if 
only for a brief moment.
    Thank you for holding this hearing because this will be 
exceptionally important that we actually get a bill across the 
floor, get it passed, and to be able to help secure our 
elections for the future.
    Thank you.
    Chairman Blunt. Thank you, Senator Lankford.
    We will call our first full panel up, we do have two panels 
this morning, and that will be Chairman Hicks and Commissioner 
McCormick, along with Dr. Romine from the National Institute of 
Standards and Technology, and Mr. Masterson from the Department 
of Homeland Security.
    I would say, as you are coming up and we are getting 
nameplates up, that your full statement will be in the record. 
We do, as I mentioned before, have another panel after you and 
we certainly want to have a chance to ask questions.
    You can deal with your time however you would like to, but 
if you want to summarize anything in your statement, we will 
have your statement in the record, and we are glad to have it, 
as we are glad to have you here today.
    We will start, Chairman Hicks, the Chairman of the Election 
Advisory Commission with you and then go to Commissioner 
McCormick, and then Dr. Romine, and Mr. Masterson.
    Chairman Hicks.

  OPENING STATEMENT OF COMMISSIONER THOMAS HICKS, CHAIR, U.S. 
    ELECTION ASSISTANCE COMMISSION, SILVER SPRING, MARYLAND

    Mr. Hicks. Good morning, Chairman Blunt, Ranking Member 
Klobuchar, members of the committee.
    I am pleased to testify before you today to discuss the 
U.S. Election Assistance Commission's work to support state and 
local election leaders in their efforts to conduct efficient, 
accessible, and secure elections.
    The Commission takes great pride in the resources and 
assistance we provide to election officials and voters, as well 
as the vital role we play as a national clearinghouse of 
election administration information to our partners in 
Congress, other Federal agencies, state and local governments, 
private industry, advocacy organizations, academia, and others 
in the election industry.
    As emphasized by witnesses at the last election related 
hearing, the EAC is focused solely on elections serving as an 
essential hub for other Federal agencies that spend only part 
of their time working on this important issue, including those 
who specialize in technology and cyber security.
    Our partners, ranging from the Department of Homeland 
Security, the Federal Bureau of Investigation, the U.S. Postal 
Service, and the DOD, rely on the EAC to provide a deep 
knowledge of how elections work and a clear line of 
communications to those in the field who administer the vote.
    Most recently, our partner agencies have counted on the EAC 
to fulfill this role with regard to election security. This 
topic is not new to the state and local election officials who 
run elections, the tens of thousands of election administrator 
staff, and election workers who support that work. It has long 
been a primary focus for the men and women on the frontlines of 
elections. Something they think about 365 days a year and 
during a Presidential year 366 days a year.
    The job description of the election official is everything 
from ADA compliance and voter registration to mail management 
and human resources. This is why it is so vital that Congress 
and the Federal agencies, especially EAC, provide election 
administrators with the resources and tools they need to 
succeed.
    The establishment of election systems is part of the 
Nation's critical infrastructure was one way the Federal 
Government sought to improve the mechanisms it uses to 
accomplish this goal. In many ways, the EAC's work during the 
2016 Federal election set a fundamental effort for this.
    At that time, prior to the critical infrastructure 
designation, we worked with DHS and the FBI to distribute 
security alerts and threat indicators to state and territories 
to help protect election systems from specific cyber security 
threats.
    We also met this goal with our Federal partner agencies by 
meeting with the White House to discuss these threats to the 
election systems, the security protocols, and the dynamics of 
the election system in the 8,000-plus jurisdictions nationwide.
    Following former Secretary Johnson's critical 
infrastructure announcement, the EAC actively worked to provide 
state and local election officials with a voice at the table 
during this discussion and how the sector would function.
    DHS has often stated that the Sector's Government 
Coordinating Council, the GCC, was formed faster than any other 
similar critical infrastructure sector council to date. The EAC 
takes great pride in this role, one that we played to make that 
happen.
    It is proof of how local, state, and Federal Governments 
can effectively work together towards a common goal of 
protecting our Nation's infrastructure. I serve on the GCC's 
executive committee, which has worked diligently to ensure the 
critical infrastructure designation has a tangible, meaningful 
impact across our Nation.
    We all know that there are many solutions to the security 
challenges, but it takes resources. We were pleased that the 
members of this committee, and your congressional colleagues, 
recognized this reality when supporting the Congressional 
Appropriations Act of 2018.
    That legislation contained $380 million for the states and 
territories to improve the administration of Federal elections. 
Just 3 months after that appropriation bill was signed into 
law, the EAC has received requests from more than 97 percent of 
those funds from 51 of the 55 states and territories designated 
to receive funds.
    That is a remarkable percentage and demonstrates the EAC's 
responsiveness and the states' urgency in addressing methods to 
make election systems more resilient.
    Less than 2 weeks after President Trump signed the 
appropriations bill into law, the EAC personally notified each 
eligible jurisdiction and issued grant award letters to every 
state and territory.
    Just 1 week after that, your home state, Mr. Chairman, 
Missouri, received its funds. It was the first state to request 
its funds and receive its funds.
    In the weeks that followed, the EAC conducted a Webcast 
public forum and explained the funds and worked directly with 
NAS, NAS head to share this information. The EAC also conducted 
webinars, published FAQ's, and other resources on our website, 
and educated nongovernmental groups including those focused on 
accessibility and security. Our expert grants administration 
team has also helped states navigate this hurdle.
    On behalf of the states and territories, I want to thank 
you again for these vital resources, and I assure you that they 
are being put to good use. Our Vice Chair, Commissioner 
McCormick, will detail some of the efforts for you.
    In the meantime, I want to thank you again for inviting the 
EAC to testify today, and I look forward to answering any, and 
all, of your questions.
    [The prepared statement of Mr. Hicks was submitted for the 
record.]
    Chairman Blunt. Thank you.
    Commissioner McCormick.

   OPENING STATEMENT OF COMMISSIONER CHRISTY MCCORMICK, VICE 
  CHAIR, U.S. ELECTION ASSISTANCE COMMISSION, SILVER SPRING, 
                            MARYLAND

    Ms. McCormick. Chairman Blunt, Ranking Member Klobuchar, 
and members of the committee.
    Thank you for inviting the EAC to testify today about the 
vital issue of election security.
    My name is Christy McCormick and I am a former Chair of the 
EAC, and currently serve as the Vice Chair, and I have been 
working in elections for three decades, starting out as a local 
voter registration assistant.
    When Congress passed the Help America Vote Act of 2002, it 
established the EAC as an independent, bipartisan commission 
charged with developing guidance to meet HAVA requirements; 
adopting voluntary voting system guidelines, and certifying 
election systems; serving as the national clearinghouse of 
information on election administration; as well as dispensing 
and auditing HAVA funds.
    I am pleased to report that our capable team continues to 
fulfill this mission and that election officials across the 
Nation consistently affirm that our work does indeed help 
America vote.
    Today, I will focus my remarks on the impact of the newly 
appropriated HAVA funds and the EAC's efforts to supplement 
these resources.
    As Chairman Hicks noted, states and territories are wasting 
no time in applying for their portion of the $380 million that 
was appropriated in March. This is no surprise.
    The U.S. election officials are well known to be 
resourceful, dedicated, and innovative. Their work to serve 
American voters, and to protect the integrity of elections, is 
deserving of our praise and support. Thanks to them, election 
systems from coast to coast produced accurate results in 2016 
and were resilient in the face of reported security threats.
    I have every confidence that the newly appropriated HAVA 
funds are helping officials to continue this vital work to 
strengthen their systems ahead of this year's midterm election 
and the 2020 Presidential election.
    While election officials are continuing to work with state 
legislators, local elected leaders, advocates, and other 
stakeholders to fine tune how they will spend these funds, 
today, I will provide a brief snapshot of some of the efforts 
we know are already underway to make the Nation's election 
systems more accessible, efficient, and secure.
    South Dakota is using the $3 million it received to upgrade 
voting equipment including ballot marking devices and ballot 
tabulators. Their existing equipment was purchased in 2005. The 
state will make crucial cyber security upgrades to its 
statewide voter registration file and election night reporting 
page.
    New York received over $19 million. The state plans to use 
this infusion of funds to implement a state and local cyber 
security risk assessment program, remediate identified 
vulnerabilities, monitor ongoing security operations, and 
respond to incidents, should they occur.
    In West Virginia, the Secretary of State's office developed 
a plan after surveying local election officials for cyber and 
physical security assessments. The state will increase election 
system protections, bolster protection capabilities, and 
prepare for corrective action, if necessary.
    The territories, many of which suffered catastrophic damage 
during last year's hurricane season, are especially grateful 
for their HAVA funds.
    For example, ahead of this year's midterm election, 
American Samoa is using a portion of the $600,000 that they 
received to restore the territory's election office and to 
replace equipment damaged during Tropical Cyclone Gita.
    They are upgrading their voter registration system, 
increasing accessibility at the polls, broadening voter 
education efforts, and improving election workstations and data 
bases.
    As part of the EAC's clearinghouse function, we are 
highlighting each state's initiatives so other jurisdictions 
may refer to them as they might determine the best ways to 
utilize their appropriated funds.
    Right now, the EAC's priority is to get these funds out the 
door as quickly and responsibly as possible. I am pleased to 
report that we are, indeed, meeting that challenge.
    The EAC has a broad spectrum of ongoing work that 
complements our role as the administrator of HAVA funding. We 
kicked off 2018 with an election summit that convened election 
administrators, security experts, academics, Federal Government 
officials, and many others to discuss approaches to strengthen 
election systems and better serve American voters.
    Building on the momentum coming out of that event, the EAC 
has continued to release new resources, conduct trainings, and 
participate in initiatives focused on election security.
    For example, EAC staff has traveled to nearly a dozen 
states to present, ``Election Officials as IT Manager,'' 
trainings for state and local election officials. These 
trainings are ongoing and we are working with DHS to put the 
training online through the FedVTE platform.
    Chairman Hicks and I regularly travel to election 
jurisdictions throughout the Nation where we meet with state 
and local election officials and hear firsthand how our 
commission, and the Federal Government, may improve the 
assistance that we provide.
    We also conduct public hearings and forums to gather 
feedback. For example, earlier this year, the EAC held a public 
forum to discuss the HAVA funding and to hear from election 
officials about ways they are working to secure their systems 
and improve their processes.
    Most recently, we held a public forum in Baltimore where 
hundreds of Americans with disabilities were gathered for the 
National Disability Rights Network's annual conference. At that 
gathering, we addressed the need to secure election systems 
consistent with the legal requirements that ensure voters can 
cast their ballots privately and independently.
    The EAC plays the unique role as the only Federal entity 
solely focused on the administration of elections. We 
appreciate Congress' support of our efforts in the states and 
territories we serve.
    I look forward to providing additional details about the 
commission's work and answer any questions that you have.
    [The prepared statement of Ms. McCormick was submitted for 
the record.]
    Chairman Blunt. Thank you, Commissioner.
    Dr. Romine.

   OPENING STATEMENT OF CHARLES H. ROMINE, PH.D., DIRECTOR, 
   INFORMATION TECHNOLOGY LABORATORY, NATIONAL INSTITUTE OF 
        STANDARDS AND TECHNOLOGY, GAITHERSBURG, MARYLAND

    Dr. Romine. Chairman Blunt, Ranking Member Klobuchar, and 
members of the committee.
    I am Charles Romine, the Director of the Information 
Technology Laboratory at the National Institute of Standards 
and Technology, known as NIST.
    Thank you for the opportunity to appear before you today to 
discuss NIST's role in election security.
    NIST's role in helping secure our Nation's voting systems 
draws on our expertise in measurement science; in working with 
standards and development organizations, and stakeholder 
communities; and in the development of testing infrastructures 
necessary to support the implementation of standards.
    Additionally, our experience working in multi-stakeholder 
processes is critical to the success of NIST's voting program.
    For more than a decade, the NIST voting program has 
partnered with the Election Assistance Commission, or EAC, to 
develop the science, tools, and standards necessary to improve 
the accuracy, reliability, usability, accessibility, and 
security of voting equipment used in Federal elections for both 
domestic and overseas voters as outlined in the Help America 
Vote Act of 2002, or HAVA, and the Military and Overseas Voter 
Empowerment Act.
    HAVA authorized NIST to provide technical support to the 
EAC's Federal Advisory Committee. The support includes 
intramural research and development to support the development 
of a set of voluntary voting system guidelines that are then 
considered for adoption by the EAC.
    The first set of guidelines was adopted in 2005, and they 
significantly increased security requirements for voting 
systems. Version 1.1 of the guidelines was approved in 2015 and 
NIST immediately began work on the next iteration of the 
guidelines, Version 2.0.
    The guidelines are used by accredited testing laboratories 
as part of both state and national certification processes by 
state and local election officials, who are evaluating voting 
systems for potential use in their jurisdictions, and by 
manufacturers, who need to ensure that their products fulfill 
the requirements to be certified.
    The guidelines address many aspects of voting systems, 
including determining system readiness, ballot preparation, 
ballot counting, safeguards against system failure, and 
tampering and auditing.
    NIST established a set of public working groups to gather 
input from a wide variety of stakeholders on the development of 
the next iteration of the guidelines 2.0. There are currently 
963 members across seven working groups, three of which are in 
the election process; three groups focused on cyber security, 
usability and accessibility, and interoperability; and one that 
will address issues related to testing.
    The Cyber Security Working Group has grown to 162 members 
and engages in discussions regarding the security of the U.S. 
elections.
    As U.S. election infrastructure has evolved, so have its 
security concerns, which today range from unauthorized attempts 
to access the voter registration systems of multiple states, to 
errors or malicious software attacks.
    The guidelines address these evolving concerns, including 
support for advanced auditing methods and two-factor 
authentication that security protections developed by industry 
over the past decade are built-in to the voting system.
    Other security issues to be resolved include the need for 
regular and timely software update and security patches. 
Networked communication is another important security issue 
currently under discussion. Many election jurisdictions rely on 
public telecommunications networks for certain election 
functions, such as reporting results to state agencies and 
media outlets the night of an election. These connections, 
however brief, are a significant expansion of threat surface 
and their security requires further study.
    In January 2017, the Secretary of Homeland Security 
designated the Nation's election infrastructure as critical 
infrastructure. In support of this effort, NIST is providing 
technical leadership in the creation of an Election Profile of 
the NIST Cyber Security Framework. This profile is another tool 
NIST developed to help election officials identify and 
prioritize opportunities to improve their cyber security 
posture.
    NIST also conducts evaluations of independent laboratories 
and provides the EAC a list of those laboratories proposed to 
be accredited. NIST developed uniform testing for critical 
security, usability, accessibility, and functionality 
requirements to achieve uniformity in testing among 
laboratories.
    NIST is addressing election security by strengthening the 
Voluntary Voting System Guidelines for voting systems, and by 
working with our Government partners to provide guidance to 
state and local election officials on how to secure their 
election systems, including voter registration and election 
reporting systems.
    Thank you for the opportunity to testify on NIST's work 
regarding election security.
    I will be pleased to answer any questions that you may 
have.
    [The prepared statement of Dr. Romine was submitted for the 
record.]
    Chairman Blunt. Thank you, Dr. Romine.
    Mr. Masterson.

 OPENING STATEMENT OF MATTHEW MASTERSON, SENIOR CYBER SECURITY 
ADVISOR, U.S. DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, D.C.

    Mr. Masterson. Thank you, Chairman Blunt, Ranking Member 
Klobuchar, and members of the committee.
    Thank you for today's opportunity to testify regarding the 
Department of Homeland Security's ongoing efforts to assist 
state and local election officials, those who own and operate 
election systems, with improving the resilience of America's 
elections.
    Today's hearing is timely. Later this week, DHS senior 
leadership will meet with election officials and their private 
sector partners as they gather in Philadelphia, the birthplace 
of our democracy, for their national summer conference and 
meetings of both our coordinating councils.
    Throughout my career, I have worked with state and local 
election officials to advance the use of technology to better 
serve American voters. For the last three years, I served as a 
Commissioner at the Election Assistance Commission and now I 
serve as the Senior Advisor at DHS focused on the work the 
Department is doing to support the thousands of election 
officials across this country.
    In this decade of work, I can tell you the best part is 
working with the dedicated professionals who administer 
elections. In the face of real and sophisticated threats, these 
officials have responded by working with us, state and local 
resources, the private sector, and academia to mitigate risks 
and improve resilience.
    The risks to elections are real. The 2018 midterms remain a 
potential target for Russian actors. While we have yet to see 
any evidence of a robust campaign aimed at targeting our 
election infrastructure like in 2016, the intelligence 
community continues to see Russia using social media, false 
flag personas, sympathetic spokesmen, and other means to 
influence or inflame positions on opposite ends of 
controversial issues.
    We remain vigilant and will continue to work with our 
election partners to strengthen the resilience of our election 
systems. As I travel the country working with state and local 
officials, it is clear that they are taking these risks 
seriously.
    For example, Florida's election officials are engaged with 
DHS and the University of West Florida to conduct robust 
trainings across the state. In addition, the State of Florida 
and its supervisors became the first state to have every county 
join our elections information sharing center. We are currently 
working with Florida counties to employ network sensors across 
the entire state. There is remarkable progress in a short 
amount of time.
    Our mission at DHS is to ensure that our stakeholders have 
the necessary information and support to assess and mitigate 
risks. We have made significant progress. State and local 
officials, as well as those private sector partners who support 
them, are at the table working with us.
    We have created government and private sector councils who 
collaboratively work to share information and best practices. 
We have created the Election Infrastructure Information Sharing 
and Analysis Center, or EI-ISAC, growing to almost 1,000 
members, including all 50 states, in just under 5 months. This 
is unprecedented growth compared with other sectors.
    Since February 2018, working with EI-ISAC, we have 
quadrupled our awareness into election infrastructure through 
network monitors known as Albert sensors.
    We are sponsoring security clearances for multiple election 
officials in each state, which allow officials to receive 
classified threat information.
    We have increased the availability and deployment of free 
technical services to election officials. DHS offers a variety 
of services, such as cyber security assessments, intrusion 
detection capabilities, information sharing and awareness, 
incident response and training. Our suite of services will 
continue to mature as the requirements identified by our 
election stakeholders mature.
    We understand the only way to deliver a resilient election 
system is to work collaboratively with those officials on the 
frontlines running the process.
    DHS has been leading an interagency effort to support state 
and local officials through an elections taskforce. This 
taskforce brings together the Election Assistance Commission, 
NIST, the FBI, the intelligence community, and DOD. The purpose 
of the taskforce is to ensure that information is actual and 
timely shared broadly across the election sector.
    The two partners sitting at the table with me now, EAC and 
NIST, have been invaluable resources for DHS as we have worked 
to develop and grow the maturity of this sector.
    For example, as Dr. Romine referenced, we are working with 
NIST and the EAC, along with our Government Coordinating 
Council, to utilize the NIST framework to further empower 
election officials to better secure their systems.
    The Department will continue to coordinate and support 
state and local officials to ensure the security of our 
election infrastructure. Malicious cyber actors can come from 
anywhere, within U.S. borders or from abroad. We are committed 
to ensuring a coordinated response from all levels of 
government. We understand the only way to do this is to work 
collaboratively with those officials that run the elections 
process.
    Before I conclude, I want to take a moment to thank 
Congress for the legislative progress thus far in strengthening 
DHS' cyber security and critical infrastructure authorities. 
Specifically we strongly support passage of legislation to 
create the Cyber Security and Infrastructure Security Agency, 
or CSISA, at DHS, which would rename and reorganize the 
National Protection Programs Directorate.
    This change reflects the important work we carry out every 
day to safeguard and secure our election infrastructure.
    Thank you and I look forward to your questions.
    [The prepared statement of Mr. Masterson was submitted for 
the record.]
    Chairman Blunt. Well, thank you, Mr. Masterson.
    Senator Klobuchar and I plan to stay for both panels and 
through this one. I am also interested to hear what other 
peoples' questions are.
    There are two areas that Members of the Congress generally, 
and the senate specifically, think they are experts at: 
elections and air travel.
    [Laughter.]
    Chairman Blunt. You are here for the elections part of 
that.
    We will start with Senator Capito, followed by Senator 
Cortez Masto.
    Senator Capito. Thank you, Mr. Chairman, and thank the 
Ranking Member.
    Thank you all for being here with us today.
    I would just like to ask a clarifying question. In the 
past, last year I was the lead appropriator on the FSGG 
subcommittee, which provided the $380 million to the EAC.
    The way I looked at the budget the previous year, 2017, it 
appeared as though the EAC had a $9 million budget.
    Is that correct, Mr. Chairman?
    Mr. Hicks. Yes. Our operating budget is about $9 million 
and so that additional $380 million was just for appropriations 
to the states.
    Senator Capito. For the grant. I am going to admit to being 
a skeptic because I am thinking, ``Do you go from $9 million to 
$380 million? Are they really going to be able to handle 
this?''
    The testimony that I have heard so far, while I have some 
questions, kind of rests my mind. I want to thank you all for 
being here today.
    Mr. Hicks. I also just want to say that we have given out 
$3.4 billion over the lifetime of HAVA.
    Senator Capito. Yes, so you are well versed in this.
    I do think, too, our election systems, because of the 
diversity of the states and local is in some ways, and this may 
be a bit of a naive thought, but I do think it does lend us to 
preserving security. Rather than having a one, singular system 
all across the Nation that if it got hacked or something would 
present even greater problems than what we have seen in the 
past.
    I also want to give a shout out to my Secretary of State, 
Mac Warner. West Virginia has been very much at the forefront 
of this. We were the first state to get our narrative grant 
explanation in to you, and we have received the $3.6 million 
from the appropriation.
    Part of what I believe Secretary Warner wants to do, and 
will be doing with those dollars, and you explained this in 
your testimony, is to purchase new equipment and update some of 
the 2004-2005 equipment.
    Could you speak to what the increased security is that 
those systems have now as compared to, say, 12 or 13 years ago?
    Mr. Hicks. Yes and no, in terms of being able to talk 
directly because I am not a computer expert overall. But I 
would say that our Voluntary Voting System Guidelines, which we 
are updating now were not updated, have not truly been updated 
since 2007. Those updates, basically, were before the smart 
phones, and iPhones, and tablets, and things like that.
    Since that time, we have gone technologically far in the 
future in terms of security and accessibility and so forth with 
phones and other aspects of computer technology. The EAC has 
updated our standards for that in terms of voting equipment 
overall.
    New voting equipment that is being tested, once those new 
Voluntary Voting System Guidelines are approved, once we get a 
quorum, they will be more stringent, and more accessible, and 
more resilient for security overall.
    Senator Capito. Dr. Romine, do you have any thoughts on 
that topic?
    Dr. Romine. Nothing specific relating to the actual 
technologies, but I will say, again, just like Chairman Hicks, 
we work diligently with the EAC on the development of the new 
Guidelines, the VVSG to ensure greater emphasis on 
auditability, on system security, and other things that are 
critical to the integrity of the elections process.
    Senator Capito. Let me ask another question and topic that 
I have great concern on in the urban and rural areas.
    Senator Klobuchar and I have worked on this, along with 
Senator King, I see in the room, on our broadband caucus 
connectivity. This is sort of an open question for anybody on 
the panel.
    Do you see in the future--and I think Senator Lankford 
talked about, we know maybe what 2020 is going to look like, 
but what is 2040 going to look like--do you see some 
difficulties with certain states that have a lower reach of 
broadband connectivity being able? How would that affect 
election security in your opinion? Does anybody have an opinion 
on that?
    Mr. Masterson. Thank you, Senator, and I will offer a brief 
one.
    This is, in part, I think, why we run elections locally is 
that ability to deploy those systems to those polling places in 
the locality with the local election official and serve the 
process without a need for that connectivity in that way.
    The resource challenges for rural jurisdictions are real 
and I think the money that Congress appropriated is an 
important first step in helping support, not just those larger 
jurisdictions in particular, infuse some money down to the 
local level to help them take the steps they need to do to 
improve the results of the process.
    Senator Capito. Then, my take away from that would be that 
the EAC has built-in to their parameters a flexibility 
component depending on what the individual needs are of urban, 
rural, large, small, whatever those particular needs might be.
    Is that a correct statement?
    Mr. Hicks. Whatever states need, we are there to give it to 
them, whether or not that is what works in Maine might not work 
in West Virginia sort of thing.
    I have gone through, since I have been in this position, 39 
of the 50 states and every state is the same, but every state 
is different, whether or not that is the urban areas or the 
rural areas.
    Because one of the misconceptions that I have noticed in 
this is that elections are not run by these huge jurisdictions 
in terms of having 10 or 15 people and so forth.
    Senator Capito. Right.
    Mr. Hicks. It is one or two individuals doing more things, 
basically from my testimony of ADA compliance or even driving a 
school bus.
    Senator Capito. Right.
    Mr. Hicks. From A to Z.
    Senator Capito. Thank you.
    Thank you, Mr. Chairman. Sorry I went over there a little 
bit. Thank you.
    Chairman Blunt. Senator Cortez Masto and then Senator King.
    Senator Cortez Masto. Thank you, Mr. Chair, and Ranking 
Member.
    Let me followup on the discussion you talked about. Right 
now, there is not a quorum on the EAC and because there is no 
quorum, you are unable to pass the Guidelines 2.0.
    Is that correct?
    Ms. McCormick. That is correct, Senator.
    Senator Cortez Masto. How else is a lack of a quorum 
impacting the work of the EAC?
    Ms. McCormick. We are able to do almost all of the work 
that the EAC staff puts forth. The day to day operations and 
the support that we can give to the states does not stop.
    We are not able to vote on new policy. That is the one area 
that we are restricted when we do not have a quorum, and that 
would include the VVSG.
    Senator Cortez Masto. Once you do have a quorum, is it 
ready to be voted on and moved quickly?
    Ms. McCormick. It has gone through our Standards Board and 
our Board of Advisors for their input, and they have voted to 
approve it. It needs to go out for public comment.
    If we do get another commissioner, and hopefully we will, 
and establish a quorum, I think it will be up to that 
commissioner to decide whether he or she is comfortable with 
the approach that we are taking. We will have to socialize what 
we have done with that commissioner so that we can all be on 
the same page when it comes time to voting for the new 
standards.
    Senator Cortez Masto. Thank you.
    Then, it is my understanding that not every vendor is 
certified.
    Is that correct?
    Mr. Hicks. Yes, because these are Voluntary Voting System 
Guidelines.
    Senator Cortez Masto. Can I ask? How long does it normally 
take to certify a vendor?
    Mr. Hicks. It could range.
    I do not want to fudge the answer, so let me get back with 
you on that one.
    Senator Cortez Masto. If you could, that would be helpful.
    [The information referred to was submitted for the record.]
    Senator Cortez Masto. I am just curious.
    How many actually are certified and how many vendors are 
not certified that are actually in our states and machines that 
we are using?
    Mr. Hicks. That we?
    Senator Cortez Masto. If you could followup with that, that 
would be helpful.
    Mr. Hicks. Right. We can get that information back.
    Senator Cortez Masto. Thank you. I appreciate that.
    [The information referred to was submitted for the record.]
    Senator Cortez Masto. Mr. Masterson, how many states have 
asked DHS for risk and vulnerability assessments on their 
election systems? Actually, how many states have received those 
assessments?
    Mr. Masterson. Thank you, Senator, for the question.
    As it stands now, 18 states have requested. We have 
performed 17 of those, or have them in process. They are in the 
process of having our teams deploy out. We have one that we are 
waiting to schedule.
    Senator Cortez Masto. Would you please provide us with a 
list of those states that have received those assessments? 
Would that be information that is public, at least, or 
available for us to know?
    Mr. Masterson. Senator, I will take your request back to 
the office.
    Senator Cortez Masto. Okay.
    Mr. Masterson. Generally, we do not share who we work with 
on any one of these services to preserve the trust and the 
relationships, so that they will continue to engage with us. 
But I will go back and pull together what information we can 
share with you.
    Senator Cortez Masto. I appreciate that. Thank you.
    Mr. Masterson. Yes.
    [The information referred to was submitted for the record.]
    Senator Cortez Masto. Let me jump back to an issue that 
also keeps coming up and we just heard it earlier today with 
the Senators.
    There is a lot of discussion about risk-limiting audits and 
whether or not they should be used more broadly across the 
country. Let me start with the EAC Commissioners, Mr. Hicks and 
Ms. McCormick.
    Can you describe in more detail the types of audits that 
are most effective in the process of putting these audits in 
place and the difference that they may make?
    Mr. Hicks. The audits depend on the state and the way that 
they do their voting.
    For instance, a state like Oregon is an all-mail-in ballot 
state. Doing a risk-limiting audit would be really helpful for 
them.
    A state that does not have a paper audit trail, it is not 
going to really work so well with them, but there are ways to 
audit those systems as well. But it just depends on what the 
states want to do in terms of the way that they want to have 
their audits run.
    We had the pleasure of going out to Colorado recently and 
witnessed their risk-limiting audit, and it functioned fairly 
well. I feel that other states are going to be taking that into 
account, like Rhode Island and New Mexico as well, to see what 
sort of audits can be done. Audits only work if they are being 
done.
    Senator Cortez Masto. Right.
    Mr. Hicks. If states have audits on the books, but they are 
not conducting them, then that is where the real problem lies.
    Senator Cortez Masto. Okay.
    Ms. McCormick. I just want to stress that we need to 
remember that every state does a canvas. The canvases do cover 
a lot of that.
    Some states can do risk-limiting audits, some cannot be 
based on what kind of systems that they are using. But all the 
states do some sort of auditing in some form or another.
    Senator Cortez Masto. That was my next question.
    It is purely voluntary for the states the type of audit 
that they conduct, but the followup is, to your knowledge, 
every state is doing some type of audit.
    Ms. McCormick. I think every state is doing some type of 
audit, if not at least a canvas before they can certify an 
election. I would assume that that would be considered part of 
an audit if you are going to canvas the election before you 
certify it.
    Senator Cortez Masto. Okay. Thank you.
    As my time is up, thank you, Mr. Chair.
    Chairman Blunt. Thank you, Senator.
    Senator King.
    Senator King. Thank you, Mr. Chairman.
    First, I want to thank you and Senator Klobuchar for 
calling this important hearing. I think this is a critically 
important issue and one that, I am not sure gets enough 
attention. I am delighted that we are working on this today and 
that Senator Lankford was here talking about his bill.
    Mr. Hicks, this is complicated: decentralized systems, all 
kinds of voting systems, and machines, and all of that.
    Is it safe to say, though, that the simplest rule should 
be, there should always be a paper back-up?
    Mr. Hicks. Senator, thank you for that question.
    It depends on the state. We cannot basically regulate.
    Senator King. I am not suggesting regulation. I am making a 
suggestion. It seems to me this is a basic thing. I am not 
saying they have to do it, but if you do not have a paper back-
up, it is very hard to determine whether you have an accurate 
count.
    Mr. Hicks. Paper is interesting because every one cannot 
use paper. If you have a disability, you come back from Iraq 
with no hands, it is hard to do that paper piece of it.
    I would say that if we can do security with paper to make 
sure that it is accessible to those who have disabilities, then 
I would say that that is one hundred percent right that we 
should have a paper back-up.
    Senator King. I want to direct a question to Dr. Romine and 
Mr. Masterson.
    I serve on the Intelligence Committee and we spend a lot of 
time with cyber security issues in the intelligence community. 
One of the most powerful tools we have is the Red Team and bug 
bounties.
    One of my concerns is that the states are at varying levels 
of security. I do not want to say they are overconfident, but 
they have a level of confidence that may not be justified. My 
old admonition from President Reagan was, ``Trust, but 
verify.''
    How about a provision that either NIST or Homeland Security 
could Red Team? Which means, try to penetrate these systems. 
There would be nothing like having a Secretary of State's 
computer have a signal come up that says, ``Greetings from 
Washington,'' to get their attention in terms of what they need 
to do.
    Is that something that you have thought about, because it 
is used in the intelligence community to great effect. 
Everybody can feel like they are really protected until 
somebody shows them they are not. That is what I am suggesting.
    Dr. Romine. Speaking just from the NIST perspective, 
however interesting an idea that is, it would be outside the 
purview of a NIST function. We are not really in the 
operational mode.
    I think we are experts at the development of guidelines, 
and standards, and providing tools to people. But with regard 
to Red Teaming, that is not something that would be appropriate 
for NIST to do.
    Ms. Masterson. Senator, thanks for the question.
    As you are aware, DHS offers a variety of free services to 
state and local officials, including onsite assessments like 
risk and vulnerability assessments, which are in-depth, 
penetration tests of the systems.
    States and localities are able to use these services as 
they see fit. In addition, we offer----
    Senator King. What bothers me in your statement is the word 
``offered''. The ones who are not asking for it may be the ones 
who need it.
    Ms. Masterson. Senator, I understand your point. I would 
also add that our offerings are not the only offerings that 
states are taking advantage of.
    We have seen--as we have gone out, and met, and talked with 
state and local officials--that state services use the National 
Guard, as well as private sector partners, are being used in 
these same ways with the services that we offer.
    My experience is that the states are taking this seriously 
in engaging. Certainly testing, like penetration testing, Red 
Team testing, is of value and many states are doing that in 
some way within their jurisdiction.
    Senator King. Do you have an overall assessment of how 
secure the American voting system is going into 2018, which is 
now 4 months away?
    Mr. Masterson. Yes, I have confidence that the process is 
resilient in that election officials working with us, state 
resources and localities have the ability to protect based on 
the resources they have, but also the ability to detect and 
recover, which is what we talk about frequently.
    Senator King. We are talking pretty much about voting 
machines and that kind of thing, but I see a real vulnerability 
is voting lists and the lists that are maintained mostly at the 
state level.
    It would not take much to disrupt an election. Take out 
everybody who is named ``Smith'' or something, then people 
would show up at the polls and could not vote.
    Are the registration lists secured?
    Mr. Masterson. The states have taken numerous steps, 
depending on the state, to improve the security. Again, it 
comes back not just to protection--because as you know well, 
these are sophisticated actors--but the plans that are in place 
to respond.
    Senator King. That was in my notes, sophisticated actors.
    Mr. Masterson. Yes, so that ability to respond and recover. 
In Federal law, with your example of registration lists, that 
ability to have that provisional ballot for all voters who 
believe they should be on the list and they are not, that is an 
important piece of resilience in the elections process that 
everyone can receive a ballot regardless if they show up and 
are told they are not on the list.
    Senator King. I am over my time, but the provisional 
ballots, are those provisioned in every state?
    Mr. Masterson. That is Federal law. Yes, sir.
    Senator King. That is mandated.
    Mr. Masterson. Yes.
    Senator King. Thank you very much.
    Mr. Masterson. Thank you, Senator.
    Senator King. Thank you, Mr. Chairman.
    Chairman Blunt. All right.
    Before I go to Senator Udall, I would maybe ask our next 
panel if they can begin to think about how their 5 minute 
opening statement could be more like 3 minutes.
    As you think about that, we do have votes at noon. We will 
be able to work through part of that after 12 o'clock time, but 
we do want to get to you and the rest of us want to ask this 
panel questions.
    Senator Udall, it is your time.
    Senator Udall. Thank you, Chairman Blunt.
    Mr. Masterson, I guess to you, and Mr. Hicks, and Christy 
McCormick, what are your agencies doing to further post-
election audits in every state?
    Mr. Masterson. We worked with our Government Coordinating 
Council that created funding considerations. Considerations for 
the use of the HAVA funds that Congress appropriated.
    Included in those is stressing the importance of post-
election auditing and the need to conduct post-election audits. 
We are continuing to work with the Government Coordinating 
Council on those practices.
    Senator Udall. Ms. McCormick.
    Ms. McCormick. Yes, we provided a lot of information to the 
states on how they could use the HAVA funds, and post-election 
audits were included in ways that they could use that money. We 
will provide guidance in that regard, if the states choose to 
use their money in that way.
    Senator Udall. Yes.
    Mr. Hicks. The same.
    Senator Udall. Yes. Are states working well with the 
Election Assistance Commission and the Department of Homeland 
Security to ensure ample communication and sharing of resources 
to ensure elections are secure? What can be done to improve 
communication with the states?
    Mr. Hicks. We are working a lot better than we did in 2016. 
With the formation of the Government Coordinating Council, and 
working with DHS and the FBI, we are functioning a lot better 
at this point than we were two years ago during that election 
season.
    Senator Udall. Great, thank you.
    Chairman Blunt, recognizing we will have another panel here 
and we have votes, I am going to yield back at this point, so 
you can get going.
    Chairman Blunt. Well, thank you, Senator.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Mr. Masterson, there have been statements indicating that 
foreign adversaries do not pose a serious threat to our 
elections. I am sure you are aware of that.
    Some people have been saying things, but you also know that 
all of our security heads in this country, under both President 
Obama and now President Trump, have stated that this firmly has 
happened and that it is a threat moving forward.
    I think it was former Senator Coats, who is the National 
Intelligence Director, who has said that, in fact, they are 
getting bolder.
    Can you confirm that the threat against our election system 
is real and the work that state and Federal officials are doing 
to update and secure our elections is warranted?
    Mr. Masterson. Senator, thank you for your question.
    As I said in my opening comments, elections are a target. 
There are real risks to the election systems. Whether or not 
there are specific threats targeting election infrastructure is 
irrelevant to the importance of the information that we share 
with state and local officials to continue to build the 
resilience and overall cyber security of the process.
    Our focus remains on helping states identify and mitigate 
those risks, and that work is important.
    Senator Klobuchar. Commissioner Hicks, several of the 
election officials at our last hearing complimented the EAC's 
efforts to quickly distribute the $380 million for election 
security funding from March.
    According to your testimony, in just over 3 months, the EAC 
has received disbursement requests for 97 percent of the funds 
from 51 of the 55 states and territories. I have seen some 
reporting that indicated delays.
    Can you explain these varying accounts very briefly?
    Mr. Hicks. Some of the delays have just been associated 
with legislation, so basically, the chief election official 
having to go back to their legislatures to figure out how to 
request that money.
    Senator Klobuchar. You mean like in my state?
    Mr. Hicks. I did not want to say it.
    [Laughter.]
    Senator Klobuchar. Yes, not the fault of our election 
person. All right, very good.
    Dr. Romine, according to requirements in the Help Americans 
Vote Act of 2002, with the current configuration, there should 
be four technical experts on the Technical Guidelines 
Development Committee.
    How many of these technical experts are cyber security 
experts?
    Dr. Romine. I will have to get back to you on that. I do 
not know that off the top of my head.
    Senator Klobuchar. Okay.
    [The information referred to was submitted for the record.]
    Senator Klobuchar. Well, as you may know, Senator Lankford 
and I, our bill would expand the Technical Guidelines 
Development Committee's mission and membership to provide 
additional cyber security expertise.
    With this expansion, do you think the new and improved 
committee would be better equipped to provide best practices 
and recommendations in election cyber security?
    Dr. Romine. I think additional expertise in cyber security 
would be welcomed in almost every facet of anything we do.
    Senator Klobuchar. Okay. Then finally, this is building on 
to what Senator Cortez Masto was asking about, but the Secure 
Elections Act calls for states to implement audits in order to 
confirm election results.
    Do you believe--and anyone can take this--that performing a 
post-election audit is a best practice that should be used to 
increase confidence in the outcome of Federal elections?
    Mr. Hicks. Yes.
    Senator Klobuchar. Do you all agree?
    [Panel nods assent.]
    Senator Klobuchar. Very good. May the record reflect they 
all nodded their heads yes. All right. Thank you.
    Chairman Blunt. Thank you, Senator.
    I will ask a couple of questions while Senator Warner is 
thinking about how he would like to close these questions out.
    There will be a time to submit written questions, and there 
will be written questions.
    Commissioner Hicks, the $380 million that was allocated to 
the states through you, how much of that is now out the door? 
How much of that is on the way to states?
    Mr. Hicks. Ninety-seven percent has been requested and we 
usually get it out within less than a week being allocated out. 
I can get the exact number of the dollar amount during our 
written.
    Chairman Blunt. I thought it was mostly gone by now. I know 
$154 million was out within the first 30 days or so.
    Mr. Hicks. It is more than $200 million.
    Chairman Blunt. You are almost totally out now.
    Now the states, there are no required standards they have 
to meet to qualify for that money currently?
    Mr. Hicks. There are requirements that they have to meet 
under HAVA, under the law.
    Chairman Blunt. But things like having an auditable ballot 
trail would not be one of those requirements.
    Mr. Hicks. Correct.
    Chairman Blunt. You mentioned that in a non-paper 
environment, there were ways to audit the returns. I am trying 
to come up with what one of those ways might be that, with 
certainty, would guarantee that what happened on election day 
was what happened.
    How would you audit those non-paper systems?
    Mr. Hicks. They are audited because there are really no 
non-paper systems. It is more of a physical paper ballot that 
people are testifying to.
    Each system has a paper record incorporated in its system 
which is encrypted and so forth. That is where the auditability 
comes.
    Chairman Blunt. They would look at the paper record that 
was generated by the individual voting device?
    Mr. Hicks. Right. The issue becomes whether or not that is 
a voter verified paper record with the auditability.
    Chairman Blunt. I understand.
    Commissioner McCormick, you said that the canvas might be 
the audit. The canvas is really where local officials report to 
state officials what their final county return is. Right?
    Ms. McCormick. Right. They check over all of the paper 
trails from the machines, all the paper receipts and make sure 
that the machines match all the numbers. In a way, those are 
audited numbers before that they are certified. Election night 
reporting is not official.
    Chairman Blunt. Right.
    Ms. McCormick. It has to go through a process where they 
check all of the paper receipts and check all of the voting 
numbers against those receipts to make sure that they can 
certify it as official results.
    It is not exactly an audit, but it is a form of an audit.
    Chairman Blunt. I think it is not exactly an audit, but I 
understand what you are saying. Election night returns are 
always unofficial.
    Ms. McCormick. Correct.
    Chairman Blunt. Always need to be verified. On that topic, 
let me go to one other.
    I think in the Maryland primary that was just completed, 
some of the registrations were not downloaded appropriately. I 
do not know how many provisional ballots were cast because of 
that.
    Do either of you know?
    Ms. McCormick. I do not know the numbers. We can get that 
from Maryland for you.
    Chairman Blunt. No. I think we are in the process of 
getting that.
    One of the things I wonder about there, we have had a lot 
of concern about what happens if the Election Day record is not 
what you would want it to be, which is exactly what happened in 
Maryland.
    I think my two questions on that would be how much does it 
slow down the Election Day voting process, if you have to cast 
that provisional ballot? Maryland may be one of the examples of 
most of those ballots cast in recent times.
    Another question that I would have--and I am just letting 
you know my interest in this--is how much that then slowed down 
the final results?
    Every state does have, as you have pointed out, a 
provisional ballot requirement if a voter shows up and, to make 
the case that they should be allowed to vote in their name, for 
whatever reason is not on. It at least applies to all Federal 
elections.
    Is that right?
    Ms. McCormick. Yes, that is a requirement under HAVA.
    Chairman Blunt. Right.
    Ms. McCormick. All states have to have provisional ballots.
    There have been a number of cases recently where, I think 
Los Angeles was also a jurisdiction recently that had names 
left off of their voter registration lists and probably used 
provisional ballots as well.
    They do add some time. They can create lines and I think 
that is one of the concerns with any possible attacks on voter 
registration systems as well because if there were, we would 
have to rely on provisional ballots to assure that those voters 
were actually registered and eligible to vote in an election.
    That could cause some delay, but a lot of the voter 
registrars across the country have that process down quite 
well, and they do a lot of training with their election 
officials on how to do that.
    Chairman Blunt. Right.
    Senator Warner and then Senator Wicker.
    Senator Warner. Thank you, Mr. Chairman.
    I want to thank you and the ranking member for holding this 
hearing, and the very good work that you have done on this 
subject matter. As you know, it is something that those of us, 
who share a common position on the Intelligence Committee, have 
also bought a perspective to it.
    I appreciate all of the panel being here.
    I really want to give two questions because I know we have 
a second panel coming up. I thank the leadership of the 
committee for getting that $380 million into the budget to try 
to help assist election officials around the country.
    I have a two-part question. The first part is it is hard 
for any enterprise, even large enterprises to evaluate, I 
think, the cyber security claims that firms make in terms of 
what kind of protections that they are going to put in place.
    Does the EAC give any guidance or kind of best practices as 
individual states or localities start to evaluate the 
effectiveness of some of the cyber security protection 
monitoring that is being offered out in the marketplace?
    Mr. Hicks. We do not give that sort of specific advice, but 
we have worked with DHS to say that these are some of the 
things that are free that are available to you, like monitors 
and so forth.
    Individual election officials have to be vigilant in terms 
of knowing that there are going to be pop ups out there who are 
just going to be looking for a quick buck, to earn a quick 
buck.
    But I believe that the way that the EAC has done now in 
providing resources to the states, in terms of things like IT 
management for election officials, has helped them. Basically 
giving them other aspects, and providing videos to them, and so 
forth allows them to have a little more confidence in the way 
the systems work.
    Senator Warner. Are there any independent rating entities?
    Again, we have a lot of the cyber security firms located in 
my state. I applaud all of them. But boy, sorting through who 
can actually produce is a tough, tough challenge.
    I think for election officials in an enterprise that this 
is not their specific expertise domain would be a real 
challenge. As you answer that, let me get to the second part of 
my question, since my time is running down.
    From the intelligence side, and I think we just saw in 2016 
the tip of the spear of the ability for social media entities, 
and others, to manipulate information.
    One of the questions I have is, and I think maybe Colorado 
has actually thought about this, is as you think about election 
monitoring, are any states actually looking at evaluating how 
some of the social media platforms may be communicating, or 
miscommunicating to voters within your states? Could some of 
the HAVA funds be used to acquire that expertise?
    Mr. Hicks. I would say that this is nothing new in terms of 
the misinformation being put out. It used to be that the 
information would be on posters, ``Republicans vote on 
Wednesday, democrats vote on Thursday.'' Now it is a lot 
quicker through social media.
    Senator Warner. But now you can touch a whole universe or 
the world with a keystroke.
    Mr. Hicks. Correct. We, at the EAC, we have met with some 
of the technology groups, those informational social media 
groups to find out some of the things that they are doing to 
ensure that this does not happen again or ways to prevent it.
    They have given us some assurances of things that they put 
in place with this, but I do not believe that the HAVA funds 
overall can be used toward that. I can go back and check with 
our grants department because it is very broad on what you can 
use that money for.
    I would think if you are looking to improve the process of 
the election overall, the administration of elections, you 
should be able to use that money, but I want to make sure of 
that before I give you a definitive answer.
    Ms. McCormick. I will just add that we are encouraging 
state and local election officials to monitor their social 
media to make sure that correct information is out there. If 
they see something that is incorrect to contact the platform 
and make sure that it is taken down or corrected.
    Senator Warner. I would hope that there might be some way 
and I think the social media companies have been slow. They are 
getting better at responding, but there needs to be some level 
of ongoing communication and collaboration.
    I hope we could work with the committee to see how we might 
work on that.
    Thank you, Mr. Chairman, and it is great to attend a 
hearing with you and such a distinguished ranking member.
    Chairman Blunt. Thank you, Senator Warner.
    Senator Wicker.
    Senator Wicker. Mr. Chairman, in light of the fact that we 
have another panel, I will wait.
    Chairman Blunt. Thank you, Senator Wicker.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Thank you to each of the witnesses for being here, for your 
testimony.
    Mr. Masterson, in 2017, the Department of Homeland Security 
declared state election systems to be critical infrastructure.
    Can you discuss what the practical effects are of this 
designation and what DHS has done differently since that 
designation with regard to state election systems?
    Mr. Masterson. Yes, thank you, Senator, for the question.
    The focus of our work in declaring elections as part of 
critical infrastructure is threefold.
    One is ensuring that state and local election officials 
have access to timely information shared with them such that 
they can mitigate risks that arise to their system. This is 
largely done through our Information Sharing and Analysis 
Center of which all 50 states are members.
    We routinely share information out through the Information 
Sharing and Analysis Center to ensure election officials have 
the information they need, whether general or technical to 
protect their systems.
    Second is providing services to those state and local 
officials on a voluntary basis. We provide onsite risk and 
vulnerability assessments, remote cyber hygiene scans, 
assessments on resilience readiness in order to help support 
those state and local officials, should they need it.
    The third is working at the Federal level with the 
intelligence community to ensure that intelligence is shared in 
a timely and actual manner.
    One of the lessons I think we all learned from 2016 is to 
ensure that the system owners and operators, those in charge of 
elections, are empowered through receiving information and 
intelligence to protect their systems. We have been 
coordinating with the intelligence community across the Federal 
Government to ensure that that information is shared.
    Senator Cruz. In March, Congress allocated $380 million of 
new spending to be put toward election security.
    How is that money being spent? What sort of oversight 
controls are there to make sure the money is actually being put 
to good use helping make elections more secure?
    Mr. Masterson. I will defer to my colleagues on the EAC.
    Ms. McCormick. Yes, we have run that money through our 
grants division in the Election Assistance Commission.
    Most of the money is being used for cyber security efforts 
and for upgrading voting systems, especially the ones that are 
quite old.
    We are requesting all of the states, requiring of all the 
states to provide a narrative and budget, along with their 
drawdown of that money, and we will be auditing how that money 
is used. Every state will be audited on their use of the money 
and whether it was used appropriately.
    Senator Cruz. How significantly do you assess the threat of 
an election being directly hacked in terms of the results at 
the ballot being altered electronically?
    Ms. McCormick. I would say that, Senator, it would be very, 
very difficult to do that given the dispersed character of our 
election infrastructure.
    We have 8,000 jurisdictions. None of the machines are 
connected to each other, so each machine would have to be 
hacked individually and that is one of the greatest securities 
that our election system actually has. It would be extremely 
difficult to do that.
    That said, every system is vulnerable and things can 
happen, but election officials are extremely vigilant.
    We do logic and accuracy testing on every single machine 
before it is used in an election that is open to the public, so 
we can check to see that the machines are actually recording 
the votes correctly. There are numerous ways to check it 
afterwards. We discussed earlier some post-election audits.
    It would be very hard to do that. However, I cannot ever 
say ``impossible''.
    Senator Cruz. Am I correct, there has obviously been a lot 
of discussion about 2016, but am I right that there are no 
indications that there was any actual hacking of election 
equipment that altered outcomes?
    Ms. McCormick. We do not know of any outcome that was 
hacked or changed in any way. What happened in 2016 has been 
characterized by Undersecretary Krebs as overstated and that it 
was mostly drive-bys and scans.
    We actually see thousands and thousands of these types of 
scans every single day across the Nation against every single 
system. I would say that we are concerned about security of the 
system, of the entire election system.
    Nothing happened in 2016, and that is the real untold story 
that the election officials did their job, and they kept system 
safe from any sort of hacking.
    Senator Cruz. What would you characterize as the most 
important security reform that state election authorities 
should put in place to ensure the integrity of the ballot 
process?
    Mr. Hicks. I would say that we need to make sure that the 
confidence of the voter remains high because if we erode that 
confidence, the voters are not going to come out and actually 
cast their ballots.
    I think from A to Z, basically from voter registration all 
the way to election night reporting, all those points are valid 
and important.
    Senator Cruz. Thank you.
    Chairman Blunt. Thank you, Senator Cruz.
    Thanks to the panel.
    At some point, I know one of my followups will be if you 
are having these thousands of attempts to get into systems all 
the time, what do we do and how do we help local and state 
election officials figure out which of those they need to take 
seriously?
    I think we had one group of state officials here last week 
and one of those state officials said they had 100,000 attempts 
in, I believe he said, every day to get into their system. If 
they report 100,000 attempts to you, I do not know what you do 
about that, but that will come in writing.
    Let us move to our second panel. Thank you all for being 
here. Obviously, very great interest to the country and the 
panel, and we are grateful that you were here.
    On our second panel, Mr. Scott Leiendecker is the CEO of 
KNOWiNK. It is a company that provides the iPad registration 
booklets in more than half the states now, I believe, including 
the District of Columbia.
    Mr. Peter Lichtenheld is the Vice President of Operations 
of Hart InterCivic.
    Bryan Finney is the CEO and Founder of Democracy Live. He 
is representing the Sector Coordinating Council.
    We have moved from the government part of the hearing to 
the nongovernment part of the hearing. We will see how this 
goes, but we are glad to have you here.
    We have your written testimony. It is part of the record. 
Mr. Leiendecker, if you want to start by either reading or 
summarizing what that testimony has told us before we get a 
chance to ask you a couple of questions, that would be fine.

   OPENING STATEMENT OF SCOTT LEIENDECKER, CEO, KNOWINK, ST. 
                        LOUIS, MISSOURI

    Mr. Leiendecker. Thank you, Senator Blunt, Ranking Member 
Klobuchar, and members of the committee.
    Thank you for today's opportunity to be with you. I am 
grateful for your willingness to engage and take into 
consideration the vendor's perspective.
    What I was here to talk about specifically is my experience 
in the past as a former election director. I think that is a 
unique perspective that I can bring to the table.
    I want to talk about the different things that we do to 
ultimately secure our products, which is our electronic poll 
roster that basically uses the iPad that ultimately helps with 
the security side and leverages the security of the iOS 
operating system.
    To kind of sum up very quickly, in order to continue 
innovating and providing strong security initiatives, we hope 
that the Federal Government will consider us a partner. We hope 
that today's hearing is just the beginning of a new 
conversation with the committee and the Federal Government will 
have with election vendors.
    Together with the local election vendors--like the ones in 
Missouri and in Minnesota that are on the frontlines in today's 
elections and throughout the election process--we want to offer 
this committee, and others in Federal Government, our 
assistance to help shape that public policy and ensure the 
integrity of our most secure process.
    Thank you.
    [The prepared statement of Mr. Leiendecker was submitted 
for the record.]
    Chairman Blunt. Mr. Lichtenheld.

   OPENING STATEMENT OF PETER LICHTENHELD, VICE PRESIDENT OF 
           OPERATIONS, HART INTERCIVIC, AUSTIN, TEXAS

    Mr. Lichtenheld. Thank you, I will keep my comments short, 
as I know we are running short on time. My name is Peter 
Lichtenheld.
    Chairman Blunt and Ranking Member Klobuchar, thanks for 
having us here. committee members, thank you.
    I am the vice president of Operations with Hart InterCivic. 
We are a voting system provider based in Austin, Texas. We 
serve about 27 million voters across the United States of 
America and we are part of the solution on election security 
working with DHS, the EAC, and other bodies, and as members of 
the Sector Coordinating Council.
    I want to clarify that voting systems are not just 
commodities, but solutions and that we are partners with our 
customers. We are constantly working with customers. We do not 
just sell them something and then expect them to run it on 
their own. We are constantly sharing best practices with 
customers, doing Webinars, giving papers to customers, and 
helping them run secure elections.
    I also want to go off my written record for a minute and 
talk about Senator Wyden's comments and address those 
specifically because Hart InterCivic is an important voting 
system provider in the United States. We have been open. We do 
not stonewall.
    We did open and answer the letter that Senator Wyden sent 
to voting system providers, and our core values at Hart are 
about candor, which I am using right now and about integrity, 
which we feel is very important. Really, one of our basic 
tenets is that we are election geeks. We love elections and we 
feel like we are helping America vote.
    Thank you.
    [The prepared statement of Mr. Lichtenheld was submitted 
for the record.]
    Chairman Blunt. Mr. Finney.

   OPENING STATEMENT OF BRYAN FINNEY, PRESIDENT AND FOUNDER, 
DEMOCRACY LIVE, INC., SEATTLE, WASHINGTON; SECTOR COORDINATING 
    COUNCIL FOR THE ELECTION INFRASTRUCTURE SUBSECTOR, U.S. 
       DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, D.C.

    Mr. Finney. Mr. Chairman, Ranking Member Klobuchar, and 
members of the committee.
    I am here today as the CEO of Democracy Live, a Seattle 
based voting technology firm delivering electronic balloting to 
members of our military, overseas voters, and the 35 million 
blind and disabled voters in the United States. That includes 
the military and overseas voters, Mr. Chairman, in your state 
on a statewide basis and Senator Warner in your state.
    I recently had the honor of being nominated and selected as 
a founding member of the Homeland Security Elections Sector 
Executive Committee. This DHS Sector Committee represents a 
broad and diverse coalition of more than two dozen companies 
and nonprofits developing, deploying, and supporting elections 
and voting solutions to meet the needs of our Nation's 200 
million eligible voters and the thousands of hardworking 
elections administrators across the United States.
    In addition, our members are working collaboratively with 
the U.S. Elections Assistance Commission, as well as state and 
local election offices to ensure secure, stable, and scalable 
voting systems. The SCC, representing the greater elections and 
voting systems providers in the United States, absolutely 
supports the increased focus and attention on the security of 
our Nation's election systems.
    As we know, foreign attempts to probe government voter 
information platforms during the Presidential campaign were 
clearly aimed at undermining faith in America's democratic 
institutions.
    While the consensus among the intelligence community 
remains clear that no vote tallies were altered in any way--and 
there is no hard, proven evidence that any private sector 
provider was compromised--the existence of foreign threats 
means that we need to continue to be extremely diligent in 
protecting our Nation's critical voting infrastructure and 
instilling confidence in our U.S. electoral systems.
    The SCC members are prepared to meet the threats and 
challenges that exist. However, with less than two dozen 
providers serving the needs of over 6,000 elections localities, 
representing over 200 million voters, expectations must be 
aligned.
    First, existing levels of government investment must 
correspond and increase to meet the growing threats to the 
entire electoral system.
    As the inventors, innovators, providers, and partners to 
what is truly the engine of our democracy, it is critical that 
we are engaged at the start of any strategic planning, testing, 
educating or other security initiatives relating to voting 
systems.
    As this committee considers how to better secure our 
Nation's election infrastructure, I would encourage your 
members to remember that the voting and tabulation systems, 
although they get the lion's share of the attention, is only 
the endpoint of a long process with potentially hundreds of 
voter touch points before that voter even casts a ballot. These 
touch points must also be secured.
    They include items like voter registration, poll books, 
election night reporting, mail balloting, which is the fastest 
growing method of voting, and information about who and what is 
appearing on your ballot.
    Finally, laws and certifications exist that can, and 
should, be strengthened to better secure our voting and 
tabulation systems, but if the information systems are 
corrupted or manipulated, then all the work and resources we 
put into hardening our voting systems may, in the end, be 
negated.
    In this era of voter bots and social misinformation, more 
and more voters are turning to their local elections officials 
for accurate objective information. As it was information 
systems that were manipulated in the recent Presidential 
election and not tabulation systems, I would encourage Congress 
to materially support elections officials to offer secure, 
objective and accessible voter information that voters can 
trust.
    Thank you.
    [The prepared statement of Mr. Finney was submitted for the 
record.]
    Chairman Blunt. Thank you.
    Mr. Leiendecker, you provide the iPad poll book in how many 
states?
    Mr. Leiendecker. Currently, we have Poll Pad, which is the 
iPad-based solution. We are in 25 states, 600 jurisdictions 
nationwide.
    Chairman Blunt. In Canada?
    Mr. Leiendecker. Canada just recently acquired our 
solution.
    We actually--just so you know and I think this is some good 
information--we went through the Ministry of Defense. They did 
an audit on our solution. The results were just released 
yesterday and there were zero vulnerabilities in our source 
code, which was nice to see.
    Chairman Blunt. Could we get a copy of that?
    Mr. Leiendecker. As soon as I get a copy of it, I could 
provide that for you.
    Chairman Blunt. Good.
    [The information referred to was submitted for the record.]
    Chairman Blunt. I think Senator Klobuchar would want to 
know this. You are now transitioning a number of Minnesota 
counties.
    Is that right?
    Mr. Leiendecker. A number of Minnesota counties. We have 
been working with Secretary Simon in Hennepin County. They have 
been using our products for about two years now; close to two 
years.
    I think in the primary elections coming up in August 15 or 
16, I believe, we will be----
    Senator Klobuchar. The 14th.
    Mr. Leiendecker. The 14th.
    Senator Klobuchar. Not that I would know that.
    [Laughter.]
    Mr. Leiendecker. I will be there and a number of us will 
also be there, but we have about 50 counties that will be 
moving toward that solution.
    Chairman Blunt. How many voters do you think were included 
in the registration material you were managing in the last 
election cycle in 2016?
    Mr. Leiendecker. 2016.
    Chairman Blunt. This is just an estimate.
    Mr. Leiendecker. It would be several million.
    Chairman Blunt. Where I am really going here is this 
question of how many people try to get into these systems and 
what do you do to determine the vulnerability of the systems 
that your company works with?
    Mr. Leiendecker. There are a number of things that we do. 
From our knowledge, nobody tried to tamper with our product.
    One of the nice things about using the iPad is the baked-in 
security that is already offered. That is one of the things 
that I really liked about this solution when I was a former 
director in St. Louis looking at the different solutions 
available to me.
    The baked-in security is a big thing, so I do not have to 
be a security expert. I am leveraging what is the Apple iPad, 
which is secured by NIST, and has all the bells and whistles 
that NIST offers, the FIPS 140-2, all of that.
    We leverage security from the security experts. We are not 
trying to be security experts at our organization, although we 
do have individuals who are security experts on staff. That is 
a big part of it is leveraging the right type of hardware and 
software.
    The other thing that we do is obviously encrypt everything 
on the iPad, so anything that is in transit is encrypted. That 
is a big part of what we try to do to make sure that we are 
responsible and thoughtful throughout the process with regard 
to security.
    Chairman Blunt. Does anybody in your organization try to 
find the weaknesses in any system that you are trying to 
manage?
    Mr. Leiendecker. Absolutely. After we get done testing the 
application, such as the one in Minnesota that we just got 
finished with a few months ago, it goes through a number of 
tests, whether it is internal, that is the first course where 
we go through and do our own testing. Then ultimately, we send 
it through penetration tests.
    That is a big thing that we have been doing since day one. 
This was not something that we just decided to do because the 
Russians decided to try to meddle in our elections process this 
past election.
    This is something that we did from day one to make sure 
that we were being responsible to our clients. Our clients are 
provided that information once those penetration tests are 
done, especially before major elections.
    But we have actually started to do more penetration tests 
throughout the year just because we know that it is important. 
It is something that is on everybody's mind. We want to be 
responsible and thoughtful for the product.
    Chairman Blunt. If somebody was monitoring the people 
trying to get into their voter registration system, part of 
that could be a legitimate effort on your part to see if it was 
possible to get in.
    Mr. Leiendecker. We do not deal directly with the voter 
registration system.
    Chairman Blunt. Got it.
    Mr. Leiendecker. We are just, I would say, the poll book, 
the paper poll book.
    Chairman Blunt. What would your penetration effort be?
    Mr. Leiendecker. The only concern that I could see is there 
are jurisdictions that do like to connect these devices in, 
like a vote center scenario, where the information can move 
from one area to the other, to one polling location to the 
other to make sure that that individual is checked off of the 
list.
    Now, the application is local and it is up to the 
jurisdiction to so choose if they want to do that, but that 
would be the only way.
    But again, all of that data is encrypted.
    Chairman Blunt. Okay, thank you.
    Senator Klobuchar.
    Senator Klobuchar. Senator Cortez Masto.
    Senator Cortez Masto. Thank you and I know we under a 
deadline, so I will be quick.
    I was talking with the Secretary of State's office in the 
State of Nevada, and one of the things they brought to my 
attention, as we talked a little bit about the risk-limiting 
audits.
    But I also understand that the risk-limiting audits and 
other sophisticated post-election audits require a voting 
system that can produce what is known as a Cast Vote Record, 
which is basically an identifier for that ballot. Many of the 
new voting systems have this capability, but lots of states are 
still using the older systems that do not produce a Cast Vote 
Record.
    The new HAVA funds are not enough for all the states to 
purchase all of the newer voting systems.
    Is there anything that you, as vendors, are doing to 
support expansion and upgrades of risk-limiting audits and 
other sophisticated post-election audit processes?
    Mr. Lichtenheld. Yes, I will answer that one.
    We do have a new voting system at Hart. We started 
developing that voting system in 2015. It is new from the 
ground up, so it takes advantage of all of the new security 
features. The first person we hired to help us build that was a 
security officer and it does support risk-limiting audits.
    We have customers who have risk-limiting audits required in 
their states or as optional in their states. We do encourage 
that every state have some sort of audit and that a lot of 
thought be put into risk-limiting audits.
    Senator Cortez Masto. Any other comments?
    Mr. Finney. As an executive member of the Executive 
Committee at the Homeland Security Coordinating Council, I 
would say that the emerging technologies, almost all of them 
will provide some of either a voter verified paper trail or a 
cast ballot record.
    Senator Cortez Masto. Okay, thank you.
    Then just one final thing, you heard the previous 
discussion on certifying the machines. That is purely 
voluntary. My understanding, after talking with some of the 
folks in the State of Nevada, the reason why some of them do 
not go through that process is because it is cumbersome. That 
is what I am told.
    Is that right?
    Mr. Lichtenheld. That is correct.
    Senator Cortez Masto. Okay.
    Mr. Lichtenheld. I am glad you brought that up. I took note 
of your question about that. Different voting system providers 
have different approaches to that, so I can only speak for my 
company.
    At Hart InterCivic, what we do is we always go through the 
EAC because it is a trusted method of having your system tested 
by an independent testing lab, and then having a stamp of 
approval from the Federal Government before you go to the 
states.
    Not all states require an EAC certification, but most 
states require at least a voting system testing lab, and that 
lab for most states has to be approved by the EAC. What we 
figure is why not go through the other step of having it EAC 
approved?
    Senator Cortez Masto. Right.
    Mr. Lichtenheld. Everyone then has a feeling of confidence 
in that. A lot of this is about voter confidence. We want 
voters to be confident that their votes count and that they 
have faith in the franchise.
    Senator Cortez Masto. I appreciate that and I agree with 
you.
    But is there a reason why some are not going through that 
process? Should we be looking at that? Is it cumbersome? Is it 
slow? Is it too expensive? I do not know. Should we be looking 
at it to make sure everybody goes through that process?
    Mr. Lichtenheld. Yes, yes, and yes. I cannot speak for the 
other companies. It is cumbersome. It is sometimes slow and it 
is expensive, and we do not always agree with the 
interpretations of the written VVSG.
    Senator Cortez Masto. Okay.
    Mr. Leiendecker. Senator, again, I would just caution that 
the voting machines themselves are only one element of the 
entire electoral process.
    You can harden the machines. You can have a Cast Ballot 
Record. You can have the audit. You can have the voter verified 
paper trail.
    But again, if the way that we are either registering to 
vote, if we know how to vote because of maybe corrupted sample 
ballots, or other information from social media is manipulated, 
then at the end of the process, no matter how secure that 
tabulation system was, if the information was manipulated going 
to the voter, that perhaps is an even larger concern.
    Senator Cortez Masto. Thank you.
    Thank you, Mr. Chair.
    Chairman Blunt. Senator Klobuchar.
    Senator Klobuchar. Very good.
    From your testimony, I know you were all taking this threat 
seriously. I was pleased Senator Shaheen and I wrote a letter 
asking if any of the top three voting machine companies have 
been asked to share the source code or other sensitive details 
with Russian entities. I was very pleased to receive a prompt 
response that that had not happened.
    But I just need to know very clearly on the record whether 
you acknowledge that your company, and companies like yours, 
may be a target for foreign adversaries seeking to disrupt our 
elections. This does not mean that you have been or that they 
have gotten through, but you could be a target.
    Mr. Lichtenheld. We are very aware of that and we are very 
diligent about defending against that.
    Senator Klobuchar. Okay.
    Mr. Leiendecker. Yes, that is accurate.
    Mr. Finney. We take that very seriously and we believe that 
part of our job is to protect the engine of our democracy, 
which are the voting systems and the voter information.
    Senator Klobuchar. We have heard that election officials 
are often limited in their ability to fully assess their cyber 
security vulnerabilities because of vendor contracts.
    Do your contracts restrict election officials from 
conducting third party vulnerability assessments?
    Mr. Leiendecker. With our system? No. It allows them to do 
it and we would work with them to do so.
    Senator Klobuchar. Okay.
    Mr. Lichtenheld. Our contracts do not prevent a customer 
from doing that. We would like customers to let us know if they 
are doing that.
    Senator Klobuchar. That would be nice, yes. Okay.
    Mr. Finney.
    Mr. Finney. We, in fact, embrace that. We encourage that.
    Senator Klobuchar. Do you think it is responsible to sell 
paperless election systems in 2018, given what we know?
    Mr. Leiendecker. To sell paperless voting systems?
    Senator Klobuchar. Yes, with no paper back-up.
    Mr. Leiendecker. My experience, just as a former election 
director, I do not see a reason not to. I think it is 
responsible to have a paper attachment to it.
    I understand some of the concerns that Chairman Hicks had 
brought up, but I think that there are things in place with the 
Help America Vote Act that secures that. But I do not see why 
there would not be.
    Mr. Lichtenheld. We at Hart, we support local choice. If 
local choice is for a paperless voting system, then we do 
provide that and it is based on state certification guidelines.
    There are, I want to make clear, there are Cast Vote 
Records on electronic voting systems and electronic voting 
systems can be audited. There are redundant copies of the Cast 
Vote Record and they can be compared against each other for 
audits.
    Mr. Finney. I would caution the Congress to always think 
about paper as the panacea in part because of the 35 million 
blind and disabled voters.
    Perhaps they cannot see the ballot. They have a reading 
challenge. They have literacy issues. They have visual 
impairments coming back from Iraq and Afghanistan. They are 
blind.
    There are innovations that are taking place, the State of 
Washington, as an example. The State of California developed 
and is deploying accessible audio capabilities.
    For things like my home State of Washington, where it is 
100 percent paper, that is wonderful for most of us in this 
room here today because we can see the ballot. But if you 
cannot see the ballot because you are blind or visually 
impaired, what can you do about that?
    We have to leave room for innovations and accessibility.
    Senator Klobuchar. Thank you.
    How do you communicate with your customers about security 
concerns? Do your contracts generally contain language that 
clearly establishes responsibilities for notification of cyber 
security incidents or vulnerabilities?
    Mr. Leiendecker. How we communicate is typically before 
elections, we work with the jurisdiction, as I spoke earlier. 
We have done penetration tests.
    We help them better understand what we have done. We also 
give them talking points if there are concerns that they can 
provide to outside sources like media and things like that.
    We have been doing this for some time. This has been done 
not just in response to the past election, but this has been 
something that we have been doing almost since day one with our 
jurisdictions.
    Senator Klobuchar. Last August, we heard about 1.8 million 
in Chicago voter records and potentially sensitive information 
was being exposed.
    The ``Los Angeles Times'' reporting on the incident, 
explained that the data were exposed by the city's poll book 
vendor, which had placed on an Amazon Web Service server a 
back-up file containing information on every voter in the city.
    Mr. Leiendecker, does your company store voter registration 
data in Amazon Cloud Services?
    Mr. Leiendecker. We do store data in Amazon's Dev Cloud 
that is protected, and has the FIPS protection, and everything 
like that.
    The incident that happened in Chicago was a mistake by that 
vendor. It was not us. But from my knowledge in what they----
    Senator Klobuchar. Because of the portion of the cloud they 
put it on?
    Mr. Leiendecker. It was not due to the portion of the 
cloud. They just did not apply a password and they left it wide 
open, from my knowledge.
    Senator Klobuchar. Okay.
    Mr. Leiendecker. That is what I would consider a stupid 
mistake.
    Senator Klobuchar. Okay, well, that is very blunt. We 
appreciate that. Thank you.
    Mr. Leiendecker. Thank you.
    Senator Klobuchar. I think Senator Warner has returned.
    Chairman Blunt. Did you really say that was very blunt?
    Senator Klobuchar. I said it was, yes. It was blunt. That 
was my little segue to Senator Warner.
    Chairman Blunt. That is a good thing, though.
    Senator Klobuchar. Yes.
    Chairman Blunt. Senator Warner.
    Senator Warner. Very efficient committee and I wish all 
committees worked this efficiently.
    First of all, I will make a generalized comment. I am very 
concerned that there is a lot of chest thumping about how well 
we did in 2016.
    I think we should be very cautious in terms of some of the 
claims that have been made and the ongoing threat. An ongoing 
threat that has been confirmed by every member of the Trump 
intelligence community that Russia and/or others will be back 
in terms of trying to penetrate our systems.
    Second, I was a businessman longer than I have been in 
politics. I believe in competition. But it worries me when you 
have three vendors that control over 90 percent of the market 
for our voting systems.
    I have to take exception following some of the comments 
that Senator Wyden has made, but I have to take exception to 
your opening comments, because I can tell you the Commonwealth 
of Virginia, after the 2016 elections, did an extraordinarily 
thorough review. I pushed that review. I pushed to make sure 
that we would have that paper audit trail because we had 
statewide elections in 2017.
    During that time, the 2017 elections, many of our local 
voting systems elected to turn over their machines to the state 
when we were that close to the election.
    You are one of our vendors. Yet, your company refused to 
work with the Commonwealth of Virginia in making that equipment 
available.
    The comment that you are transparent and the comment that 
you are willing to work with all these systems was not the case 
in the Commonwealth of Virginia.
    On a going forward basis, I would like to get a commitment 
from you that you will work not only with the Commonwealth 
Virginia, but with other states that are doing such a review. 
That we are also going to be willing to look at a second half 
of this problem, which is vendor lock-in.
    One of the things we know about IT systems is once you sign 
that contract, you have that ongoing maintenance contract that 
oftentimes means--even if a state wants to choose a different 
servicer--they are not able to do that.
    I would like to get a commitment from you that you are, 
one, willing to work with the Commonwealth of Virginia on a 
going forward basis and other states.
    Two, what you and Mr. Finney, what you are doing, what your 
systems are doing about moving toward interoperability.
    Three, how do we make sure, in terms of third party 
servicing contracts, that your existing contracts do not 
preclude that so that you can get fresh eyes.
    My fear is by precluding third party servicing, you have 
that lock-in where a system then does not have the ability to 
even bring in a third party researcher or others to look at 
your systems.
    Mr. Lichtenheld. Yes, I will answer all of those questions, 
sir, or comments.
    First of all, yes, I make that commitment to the 
Commonwealth of Virginia. At that time, we only had a few 
customers in Virginia and all of them were looking at going to 
our new system. The point was moot as far as our old system. 
They all were moving on.
    Senator Warner. The Commonwealth of Virginia requested you 
return those machines. You did not.
    Mr. Lichtenheld. Okay.
    Senator Warner. That is the record.
    Mr. Lichtenheld. Okay.
    Second, do we box customers into a service with us? No, we 
do not. Other vendors can provide service to our machines, and 
we actually make our equipment self-serviceable by our 
customers.
    We do not need to go out and touch the equipment, for 
example, for our customers. We have tried to make it very much 
more open going forward.
    Senator Warner. So a third party could come in and be the 
ongoing servicer?
    Mr. Lichtenheld. Yes, and we have customers who do that.
    The interoperability, that is a thing of the future 
probably. We are not currently working on that and that will 
depend on certification, and NIST, and all that good stuff.
    Senator Warner. Mr. Finney, do you want to add anything?
    Mr. Finney. Certainly.
    In terms of the three vendors sitting here today, we 
represent three different components of the entire electoral 
system. We have electronic poll book. You have a tabulation 
system. We happen to provide balloting to overseas, and 
military, and voter information tools.
    The modularity of which you speak, I believe, is critical 
to the ongoing innovation within the elections industry, so not 
one vendor can own the entire electoral apparatus for one 
jurisdiction.
    I think we do believe in letting a thousand flowers blossom 
by innovation and modularity, making sure that the three of us 
can work seamlessly together. So if Mr. Lichtenheld's system 
works with an electronic poll book or provides the data, so we 
can provide information to overseas and military voters or 
blind and disabled voters that we are all working together
    I think that actually helps to secure and harden the 
overall electoral system.
    Senator Warner. The Chairman has given me discretion. I 
know he has got to go vote. I have to go back and vote again.
    Let me just say, Mr. Chairman, I believe we have such 
concentration in these systems on the backend, and 90 percent 
concentration, and the vulnerabilities that I believe exist and 
still exist.
    I think we need to at least think about, with this level of 
concentration, the ability to have potentially, at least, 
independent cyber security researchers having some access to 
give us that ``Good Housekeeping Seal of Approval'' at some 
point on some of these systems.
    I am afraid if not, the vulnerability of the current, some 
of the self-accolades that have been given by some of the 
panel, may come back and bite us.
    Chairman Blunt. I am certainly willing to work with you, 
Senator, and see if we should look at this more closely.
    I thank our witnesses for being here.
    The record will be open for 1 week. I would ask you to 
respond quickly if you get questions in writing.
    [The information referred to was submitted for the record.]
    Chairman Blunt. The committee is adjourned.
    [Whereupon, at 12:24 p.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
 

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
